<html>
<title> - IDENTIFYING LABOR H.R. 3994, DEPARTMENT OF THE INTERIOR TRIBAL SELF-GOVERNANCE ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                           IDENTIFYING LABOR

                           SOLUTIONS FOR THE

                         GUAM MILITARY BUILDUP

=======================================================================


                           OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                      Tuesday, September 23, 2008

                               __________

                           Serial No. 110-87

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov



                   U.S. GOVERNMENT PRINTING OFFICE
44-613 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Louie Gohmert, Texas
Dan Boren, Oklahoma                  Tom Cole, Oklahoma
John P. Sarbanes, Maryland           Rob Bishop, Utah
George Miller, California            Bill Shuster, Pennsylvania
Edward J. Markey, Massachusetts      Bill Sali, Idaho
Peter A. DeFazio, Oregon             Doug Lamborn, Colorado
Maurice D. Hinchey, New York         Mary Fallin, Oklahoma
Patrick J. Kennedy, Rhode Island     Adrian Smith, Nebraska
Ron Kind, Wisconsin                  Robert J. Wittman, Virginia
Lois Capps, California               Steve Scalise, Louisiana
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
            Christopher N. Fluhr, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON INSULAR AFFAIRS

            DONNA M. CHRISTENSEN, Virgin Islands, Chairwoman
        LUIS G. FORTUNO, Puerto Rico, Ranking Republican Member

Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            Jeff Flake, Arizona
Raul M. Grijalva, Arizona            Don Young, Alaska, ex officio
Madeleine Z. Bordallo, Guam
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, September 23, 2008......................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     3
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Bice, Major General David F., (USMC Retired), Executive 
      Director, Joint Guam Program Office........................    33
        Prepared statement of....................................    34
    Connelley, Maria S., Director, Guam Department of Labor......    14
        Prepared statement of....................................    16
    Domenech, Douglas W., Acting Deputy Assistant Secretary for 
      Insular Affairs, U.S. Department of the Interior...........    37
        Prepared statement of....................................    39
    Okada, Mary A.Y., President, Guam Community College..........    25
        Prepared statement of....................................    27
    Underwood, Hon. Robert A., Ed.D., Former Member of Congress, 
      and President, University of Guam..........................     9
        Prepared statement of....................................    11

Additional materials supplied:
    Martinez, James, President, and Hon. John M. Robertson, P.E., 
      Chair, Committee on Government and Labor Relations, Guam 
      Contractors Association, Statement submitted for the record     5


    OVERSIGHT HEARING ON ``IDENTIFYING LABOR SOLUTIONS FOR THE GUAM 
                           MILITARY BUILDUP''

                              ----------                              


                      Tuesday, September 23, 2008

                     U.S. House of Representatives

                    Subcommittee on Insular Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:08 p.m., in 
Room 1324, Longworth House Office Building, Hon. Donna 
Christensen [Chairwoman of the Subcommittee] Presiding.
    Present: Representatives Christensen, Gallegly and 
Bordallo.
    Mrs. Christensen. Good afternoon, everyone. The oversight 
hearing by the Subcommittee on Insular Affairs will come to 
order.
    The Subcommittee is meeting today to hear testimony on 
identifying labor solutions for the Guam military buildup. 
Under Committee Rule 4(g), the Chairman and the Ranking 
Minority Member can make opening statements. However, if there 
are no objections, I will also allow the gentlelady from Guam, 
Congresswoman Bordallo, to give an opening statement as well. 
And I recognize myself for five minutes.

   STATEMENT OF THE HON. DONNA M. CHRISTENSEN, A DELEGATE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. It is good to see everyone here this 
afternoon.
    A little more than a year ago, the Subcommittee responded 
to a request from our colleague and Delegate from Guam, Ms. 
Bordallo, and traveled to the island to conduct an oversight 
hearing on the planned military buildup scheduled to occur 
within the next decade.
    In Congress, one does not know Guam without also knowing 
Congresswoman Bordallo. And anyone familiar with the Guam 
buildup is aware that Congresswoman Bordallo is fighting for 
Guam's interest on all fronts--the island's people, economic 
opportunity, preservation of its environment and its culture. 
It is because of her concern for Guam's future that the 
Subcommittee has taken great interest in this issue, and I 
applaud my colleague for her diligence and fortitude.
    As many here are aware, the agreements struck between the 
United States and the Government of Japan in 2005 would 
ultimately result in the relocation of approximately 8,000 U.S. 
Marines from Okinawa to Guam. In addition to that number, the 
Department of Defense estimates 9,000 more, comprising Marine 
families and others to support their new relocation, will be 
needed.
    The relocation will cost anywhere between $10 billion and 
$15 billion. A little more than half of such costs will be 
shouldered by the Japanese Government, with the remainder by 
the United States. During the August 2007 oversight hearing, 
the Joint Guam Program Office's Executive Director, retired 
General David Bice, testified that, of the projected 15,000 
additional jobs which will be created to execute construction 
on Guam, approximately 75 percent, or a little more than 
11,000, would need to come from off island. The remaining 4,000 
jobs could be filled locally by Guam residents.
    Today's hearing focuses on just one piece of the Guam 
buildup--labor solutions. We are aware that the Interagency 
Group on Insular Areas, led by the Department of the Interior, 
has met and established working groups to collaborate with Guam 
and that DOD is also active in these meetings.
    Even with such partnerships, however, I believe it is still 
necessary that the Federal Government bear the greater burden 
in helping Guam prepare. We have a responsibility to give the 
island community assurances that their interests are also ours.
    In terms of the matter before us, I believe it is important 
for Guam's residents to know that they will be the first to 
fill jobs and that the Federal Government is assisting their 
institutions to prepare its residents. Our government should be 
instilling confidence that Federal and local laws will be 
enforced to ensure that the 
H-2 workforce will be there to do the job and not be left 
behind--and that nothing we do to meet our country's mission in 
Asia and the Pacific comes to the detriment of the island's 
community.
    This buildup has been characterized as one of the largest 
realignment missions in our country's history, and it should 
therefore command the attention of all Federal agencies working 
together at all levels. I am skeptical that without the full 
pledge and collaboration of all Federal agencies, tangible 
success for the island will not be realized. I hope that this 
hearing offers us optimism that everything which can be done 
for Guam and the region is being carried out.
    I am pleased that our first panel comprises leaders who are 
central to the solutions needed for Guam over the next decade. 
We are pleased to welcome back our former colleague, 
Congressman Bob Underwood, who is now the President of the 
University of Guam; from the Guam Community College, its 
President, Mary Okada; and from the Guam Department of Labor, 
Director Maria Connelley.
    For our second panel we also welcome the Executive Director 
of the Joint Guam Program Office, retired General David Bice; 
and the Acting Assistant Secretary for Insular Affairs, Mr. 
Doug Domenech.
    [The prepared statement of Ms. Christensen follows:]

     Statement of The Honorable Donna M. Christensen, Chairwoman, 
                    Subcommittee on Insular Affairs

    A little more than a year ago, the Subcommittee responded to a 
request from our colleague and Delegate from Guam, Ms. Bordallo, and 
traveled to the island to conduct an oversight hearing on the planned 
military buildup scheduled to occur within the next decade.
    In Congress, one does not know Guam without also knowing 
Congresswoman Bordallo. And anyone familiar with the Guam buildup, is 
aware that Congresswoman Bordallo is fighting for Guam's interests on 
all fronts--the island's people, economic opportunity, preservation of 
its environment and its culture. It is because of her concern for 
Guam's future that the Subcommittee has taken great interest in this 
issue and I applaud her for diligence and fortitude.
    As many here are aware, an agreement struck between the United 
States and the Government of Japan in 2005 would ultimately result in 
the relocation of approximately 8,000 U.S. Marines from Okinawa to 
Guam. In addition to that number, the Department of Defense estimates 
9,000 more comprising Marine families and others to support the new 
relocation will be needed.
    The relocation will cost anywhere between $10-$15 billion dollars. 
A little more than half of such costs will be shouldered by the 
Japanese government with the remainder by the United States. During the 
August 2007 oversight hearing, the Joint Guam Program Office's 
Executive Director, retired General David Bice, testified that of the 
projected 15,000 additional jobs which will be created to execute 
construction on Guam--approximately 75%, or a little more than 11,000, 
would need to come from off-island. The remaining 4,000 jobs could be 
filled locally by Guam residents.
    Today's hearing focuses on just one piece of the Guam buildup--
labor solutions. We are aware that the Interagency Group on Insular 
Areas, led by the Department of the Interior, has met and established 
working groups to collaborate with Guam and that DOD is also active in 
these meetings.
    Even with such partnerships however, I believe it is still 
necessary that the Federal government bare the greater burden in 
helping Guam prepare. We have a responsibility to give the island 
community assurances that their interests are also ours.
    In terms of the matter before us, I believe that it is important 
for Guam's residents to know that they will be the first to fill jobs 
and that the Federal government is assisting their institutions to 
prepare its residents. Our government should be instilling confidence 
that federal and local laws will be enforced to ensure that the H-2 
workforce will be there to do a job and not be left behind. And that 
nothing we do to meet our country's mission in Asia and the Pacific 
comes to the detriment of the island's community.
    This buildup has been characterized as one of the largest 
realignment missions in our country's history and it should therefore 
command the attention of all federal agencies, working together at all 
levels. I am skeptical that without the full pledge and collaboration 
of all federal agencies, tangible success for the island will not be 
realized. I hope that this hearing offers us optimism that everything 
which can be done for Guam and the region is being carried out.
    I am pleased that our first panel comprises leaders who are central 
to the solutions needed for Guam over the next decade. We welcome back 
our former colleague, Congressman Robert Underwood, who is now the 
President of the University of Guam; from the Guam Community College, 
its President Mary Okada; and from the Guam Department of Labor, its 
director Ms. Maria Connelley. For our second panel, we also welcome the 
executive director of the Joint Guam Program Office; retired General 
David Bice and the Acting Assistant Secretary for Insular Affairs, Mr. 
Doug Domenech.
                                 ______
                                 
    Mrs. Christensen. At this time, I would like to recognize 
Ms. Bordallo for any opening statement she might have.

  STATEMENT OF THE HON. MADELEINE Z. BORDALLO, A DELEGATE IN 
              CONGRESS FROM THE TERRITORY OF GUAM

    Ms. Bordallo. Thank you very much, Madam Chairman; and I 
want to thank you for your kind words.
    I wish the audience to know that the Chairman of the 
Insular Affairs Subcommittee has always been very supportive of 
Guam and all of its issues, as well as other representatives of 
the U.S. Territories. We are a tight-knit group; and on this 
issue, the military buildup, we continue to hold hands and 
support each other. I truly appreciate your calling this 
hearing to order today, Madam Chairwoman; and I appreciate your 
leadership on this matter and standing as a partner with Guam 
as we try to ensure that the military buildup is a success for 
everyone on our island and in the Marianas and Greater 
Micronesian Region. We also want this initiative to be a 
success for our partner, the Department of Defense, and for our 
national security interests.
    Today's hearing addresses one of the major and challenging 
issues facing our community as we continue to prepare for the 
ongoing military buildup on Guam. I appreciate all of the input 
from the witnesses present today, as well as the written 
reports that we will be receiving from Governor Felix Camacho, 
Speaker Judy Won Pat, members of the Guam legislature and our 
mayor's council and other stakeholders in the community.
    Our witnesses and others from Guam have put a lot of work 
into their plans; and I strongly encourage all of the Federal 
agencies, including the Joint Guam Program Office, the Office 
of Insular Affairs and the United States Department of Labor, 
to be specific and to provide all of the necessary assistance 
in order to ensure that military buildup benefits both the 
civilian and the military community. And I will repeat that, 
that it benefits both the civilian and the military community.
    Our primary goal is to provide full employment for the 
people of Guam and for those who seek jobs from our region. We 
need to continue to build robust training centers and programs 
to meet the training needs of those in Guam and in our region 
who desire to be gainfully employed to make the buildup a 
success and to be a part of this process. If we would gainfully 
employ thousands of our Guam residents and our friends in the 
CNMI and from Micronesia and Palau, this would be good for Guam 
and our region as a whole.
    And at this time, I would like to note the presence of 
Ambassador George of FSM who is in our audience. Thank you very 
much.
    Providing jobs and opportunities for workers on Guam and 
our region will provide a greater quality of life for everyone.
    Here with us this afternoon are two panels of outstanding 
witnesses. In our first panel, we have a former Member of the 
U.S. Congress, Dr. Robert Underwood; and he is the current 
President of the University of Guam. Ms. Maria Connelley, 
Director of the Guam Department of Labor; and Ms. Mary Okada, 
the President of the Guam Community College. I want to thank 
you for traveling all the way to Washington--and I know that 
trip--during this final week of legislative session and for 
your testimony this afternoon. Your input and leadership on 
these matters is greatly appreciated.
    Additionally, I look forward to testimony from a friend of 
mine, Major General Bice, Executive Director of JGPO, and the 
Honorable Doug Domenech, Acting Deputy Assistant Secretary for 
Insular Affairs for the Department of the Interior.
    I appreciate their leadership on the national level as we 
implement strategies for the buildup, and I look forward to the 
answers to today's questions about where we stand toward 
shaping the workforce and training our people for these jobs. 
And I yield back my time.
    Mrs. Christensen. Thank you, Congresswoman Bordallo.
    Mrs. Christensen. If there are no objections, I would like 
to now submit for the record the written testimony of Mr. John 
Robertson, Chair of the Committee on Government Relations for 
the Guam Contractors Association.
    Hearing no objection, so ordered.
    [A letter submitted for the record by the Guam Contractors 
Association follows:]

GUAM CONTRACTORS ASSOCIATION
718 North Marine Corps Drive Suite 203 Tamuning, Guam 96913-4425
Telephone: (671) 647-4840 Facsimile: (671) 647-4866
Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c9aeaaa889a0bdace7a7acbd">[email&#160;protected]</a>
Website: www.guamcontractors.org

September 18, 2008

Honorable Donna M Christensen
Chairwoman, Subcommittee on Insular Affairs
Committee on Natural Resources
U.S. House of Representatives
Washington, DC 20515

Regarding:Identifying Labor Solutions for the Guam Military Build-up

Dear Congresswoman Christensen:

    Thank you for inviting the Guam Contractors Association to provide 
testimony at your Oversight Hearing on 23rd September 2008 in relation 
to ``Identifying labor solutions for the Guam military buildup''. Our 
written testimony follows. We apologize for not being able to attend 
the hearing to provide verbal testimony and that is because of the 
great distance from Guam to Washington, DC.
    We did provide verbal testimony at the Oversight Field Hearing on 
Guam on 13 August 2007 and our current testimony is similar to what was 
provided then.
    Workforce Availability. An adequate workforce is not available on 
Guam to deal with the massive construction program that is expected to 
commence at about third quarter of FY-2010. The Joint Guam Program 
Office has projected a need for about 15,000 skilled tradesmen at peak. 
Depending on the rate at which contracts are put on the market by 
NAVFAC, the demand could go much higher up to say 22,000. In addition 
to skilled tradesmen there will be need for professionals including 
managers, engineers, supervisors, administrators and accountants. Also, 
semiskilled and unskilled laborers will be required. In general, we 
believe the numbers of persons required will be sourced from the 
following locations:
    From Guam. Local citizens and residents should be given priority 
treatment in relation to employment. Otherwise, there could be 
resentment in the community toward the military buildup with the 
possibility of a backlash. To maximize job opportunities for Guam 
residents, skilled trades training must be intensified. See further 
discussion below. For most semi-skilled and un-skilled positions, there 
is generally, sufficient numbers of workers on Guam, with some of these 
individuals originating from Micronesia.
    From Micronesia. Individuals from the Commonwealth of Northern 
Mariana Islands (Saipan, Tinian, Rota), Republic of Palau, Federated 
States of Micronesia (Yap, Chuuk, Pohnpei, Kosrae), and the Republic of 
the Marshall Islands have special status and can travel freely to Guam 
and the U.S. They can and will migrate to Guam for job opportunities 
created by the military buildup. Some of these have or will acquire 
skills necessary for positions in the skilled work force. Many, 
however, lack a working knowledge of the English language and because 
of circumstances lack basic employability skills. There are important 
cultural differences between the various islanders in spite of the 
relatively short distances between them. Many Micronesians currently 
live in Guam and have already joined the workforce after training. 
Micronesians merit special attention and not only because of their 
special status in relationship with the United States. Those that 
become employed will be an asset for the community for years to come. 
Those that move to Guam that are unable to find jobs could become a 
strain on the Guam economy and local society.
    From CONUS. Mainland based contractors that take contracts on Guam 
will normally supply key management, engineering and administrative 
personnel from their home base. Guam based contractors will likely 
recruit key personnel from the mainland through affiliated companies or 
by other means. Some tradesmen from Guam that migrated to CONUS during 
the period of a prolonged weak economy in search of better paying jobs 
can be expected to return to reunite with their families. Skilled 
tradesmen from CONUS are not expected to take temporary jobs in large 
numbers and for the following reasons: From past experience, it is 
known that top quality skilled tradesmen will not travel that far from 
home and family even for higher wages. There are no tax incentives such 
as for overseas employment and Guam wages are not attractive. Those 
CONUS based tradesmen that take jobs on Guam normally do not adapt well 
and tend to return home within a few months time. The construction 
market in CONUS is expected to rebound within the next year or two and 
there is even now a shortage of skilled construction workers. Skilled 
tradesmen that might choose to take jobs in Guam would have to be 
replaced by H-2B workers in CONUS.
    From Japan. Because of the financial contribution by the Japanese 
government to the cost of relocating elements of the Marine Corps from 
Okinawa to Guam, many contracts will no doubt be won by Japanese 
contractors. Like American firms, the Japanese contractors can be 
expected to supply key management, engineering and administrative 
personnel from their home base. When working abroad, Japanese firms 
tend to utilize skilled workers from other Asian countries such as the 
Philippines, Thailand and India.
    From Asia. Construction contractors on Guam, whether local or CONUS 
based, traditionally use skilled tradesmen from Asia to fill jobs that 
cannot be filled by local Guam personnel. This has been so since the 
end of World War II. The Philippines has usually been the first choice 
because of proximity, language and their ability to meld into the Guam 
life style and community. The contractors should be allowed to select 
the source of their skilled workforce.
    Development of a Skilled Workforce on Guam. As many persons as 
possible from Guam and neighboring islands must be brought into the 
workforce for the military buildup. As of this date, not enough is 
being done locally by either the government or the private sector to 
develop a skilled workforce on Guam. This is due to a lack of funding. 
Taking into account that training for skilled trades requires on 
average four years, the need for greater action is now. There follows, 
discussion of institutions most involved in training activities on 
Guam.
    The University of Guam has programs in place to prepare individuals 
for careers in business administration, accounting and other fields 
adaptable to the engineering-construction industry as well other 
industries that will expand as result of the military buildup. The UOG 
has initiated a 2-year pre-engineering program in conjunction with the 
University of Iowa that can prove most helpful in preparing individuals 
for careers in engineering.
    Guam Community College has primary responsibility in the territory 
of Guam for secondary and postsecondary career and technical education 
programs. These programs are pertinent to the engineering-construction 
industry as well as industry and commerce in general. GCC has technical 
education programs for governmental agencies, the hotel and restaurant 
industry, auto mechanics as well as some construction skilled trades. 
The Guam Contractors Association has maintained a strong relationship 
with the GCC for many years for the provision of trades training. There 
was a sharp drop in the number of trainees in the late 1990's and early 
2000's as result of the economic situation and a shift in focus by 
GCC's leadership at the time. With the change in key leadership last 
year (i.e., new President and two Vice Presidents), the relationship is 
now recharged and an MOU is soon to be signed between the GCC, the GCA 
and the GCA Trades Academy laying the groundwork for a joint effort in 
training of a local workforce in skilled trades for construction and 
related fields.
    The GCA Trades Academy was established as a separate non-profit 
institution of learning by the Guam Contractors Association in 2006 and 
has in place all necessary licenses and certifications for its purpose. 
First classes started in October of the same year and it has been in 
continuous operation since then. It now has about 100 participants. The 
GCA initiative is designed specifically for developing a skilled 
construction workforce on Guam in line with what many local chapters of 
the Associated Builders and Contractors on the mainland are doing. 
Contractors Associations have learned that training from within the 
industry produces better results for skilled trades than state 
sponsored junior colleges. A few key matters of interest:
    The Guam Contractors Association has had training and 
apprenticeship as a primary focus for more than 30 years and it is 
accredited by the U.S. Department of Labor. Training had previously 
been conducted exclusively at GCC. In the late 1990's and early 2000's 
there was a reduction in training activity as result of the economic 
situation on Guam and a change in focus at GCC. The relationship is now 
back on track as mentioned above.
    Training at the GCA Trades Academy is based on curricula of the 
Contren Learning Series as developed by NCCER--National Center for 
Education and Research. It is recognized by the U.S. Department of 
Labor and other agencies as being the best program available for 
construction trades. It is used extensively in CONUS by open-shop and 
some union trades training centers. Credits are transferrable from one 
training center to another. Those completing the course are placed on a 
national register for job placement anywhere in the United States.
    The GCA Trades Academy is following the example of contractor 
associations across America by setting up certified training programs 
that are taught by construction professionals within a construction 
environment. Such training centers in CONUS are generally funded by 
school districts or by federal and local governments.
    Participants in the GCA Trades Academy training program are 
generally hired by a local contractor after completion of training in 
the basics including safety in the work place. In fact, the academy is 
able to guarantee jobs to all those with interest in construction as a 
career and are willing to apply themselves to learning.
    The Board of Trustees is intent on working in close cooperation 
with the University of Guam, Guam Community College and the Guam Public 
School System in carrying out common objectives toward developing a 
genuine Guam workforce.
    The GCA Trades Academy has begun reaching out to Micronesians 
living on Guam and on the outer islands. For example, the Trades 
Academy is assisting other public and private sector groups in Saipan, 
Rota, Pohnpei and other islands in establishing a trades academy 
patterned after the one on Guam.
    The GCA Trades Academy has reached out to the Department of Youth 
Affairs, the Department of Corrections and Drug Court to offer training 
to those ready for rehabilitation.
    The GCA Trades Academy could increase its student population from 
200 to 500 almost overnight if necessary funding was in place. Rapid 
growth is dependent on adequate financial support. Because training for 
most trades requires four years, the time to take this training 
seriously is now.
    Center for Micronesian Empowerment. On Guam, the Trades Academy is 
cooperating with the Center for Micronesian Empowerment (CME) to draw 
Micronesians into the workforce. The CME is assisting these individuals 
in becoming established on Guam and becoming acclimated to the local 
culture. It is providing training in English as a second language and 
is teaching employability skills. The CME is a private sector non-
profit Guam based organization supported by the Guam Chamber of 
Commerce and a number of local businesses. It is focused not only on 
construction trades but also employment opportunities in the 
hospitality industry.
    Funding for Workforce Development. A funding stream for the GCA 
Trades Academy and its students in the program is not yet mature, 
although it has proven to be economically viable. As indicated earlier, 
it could reach out to more trainees with a more robust funding stream.
    Startup costs for the GCA Trades Academy have been by contributions 
from GCA member firms and some local businesses. Likewise, most tuition 
and related expense has been paid by the individual student or his or 
her employer.
    The Guam Department of Labor has sponsored some students using 
Workforce Investment Act funds but only for those that are first time 
job seekers or those that have become displaced. This funding source 
amounting to $180,000 is ongoing but may not be fully utilized because 
of lack of participants.
    Citibank has provided a $30,000 grant for six scholarships over the 
current year. The Guam Chamber of Commerce has also set up a 
scholarship fund with the Trades Academy.
    Grant funding has been provided to the GCA Trades Academy through 
the Guam Community College for some training equipment and simulators.
    Guam has for a number of years had a Manpower Development Fund 
(MDF) that has as its source of revenue, 70% of registration fees paid 
primarily by construction contractors, to the Guam Department of Labor 
for the processing of nonimmigrant alien temporary worker visa 
requests. The remaining 30% is retained by the Guam DOL for 
administration of the program. The MDF money is passed through the 
Department of Administration, as approved by the Guam Legislature, to 
the Guam Community College. The use of these funds is strictly limited 
to apprenticeship training and does not include pre-apprentice training 
or other forms of craft training. As of this date, none of the MDF 
dollars has been made available to the GCA Trades Academy for 
construction trades training. That is expected to change with the new 
closer working relationship between the GCC and the GCA Trades Academy. 
The GCC has agreed to provide financial support for some apprentices 
using the MDF.
    It is important to note that Apprenticeship Training programs were 
very popular during earlier times with both employers and trainees. The 
current generation of young adults are not as willing as their 
predecessors to make an early commitment to a career choice. Employers 
are not as eager to indenture apprentices absent the long term 
commitment. For that reason, the U.S. Department of Labor is 
considering a change in its policies. Meanwhile, The NCCER offers a 
certificate for those completing its training courses that can be used 
for attaining journey person status. This change in approach is working 
in CONUS and Guam from the standpoint of workforce development but has 
limits with regard to public funding.
    The GCA Trades Academy is in need of further financial support to 
accomplish its mission within the short timeframe of the military 
buildup. Note again that WIA funds and Manpower Development Funds are 
restricted. Funds with fewer restrictions could be used for pre-
apprenticeship training and other craft training that is needed. 
Assistance from the federal government might best be accomplished by 
supporting grant opportunities through the Guam Community College for 
use by the GCA Trades Academy.
    Related Concerns. There are other important concerns related to the 
need for an expanded workforce on Guam.
    Visa Quota. This was a concern last year but is now resolved with 
the removal of Guam and CNMI from the U.S. quota on H1 and H2 visas. It 
will be in effect for 5 years starting in June 2009.
    Security. There is concern that nonimmigrant temporary workers from 
Asia must not be a security risk before entering Guam. That has been 
addressed with the military and a solution has been found.
    Unions. Guam is a right to work territory. The GCA is opposed to 
the entry of construction trade unions into Guam to represent the 
workforce. Wage rates will increase over the next few years and the GCA 
is working with the Guam DOL to ensure that happens but in a way to not 
negatively impact the fragile local economy.
    Camp Accommodation. Guam contractors prefer to provide camp 
accommodation for their nonimmigrant alien temporary workers. Some 
additional ``Olympic Village'' style temporary worker camps may be 
necessary for the large number of workers expected to be on Guam for 
the military buildup. Such facilities could be designed for later use 
as schools, affordable housing or other. This will require cooperation 
between local and federal government officials.
    Specifications for Worker Camps. Construction contracts developed 
by NAVFAC for MILCON projects should include strict requirements for 
worker accommodation. Camps must conform to OSHA and other regulations 
and should include a cafeteria, a clinic, a convenience store, 
recreational and other facilities to avoid overtaxing existing similar 
facilities on Guam.
    Compliance Issues. There have been compliance difficulties in the 
past on Guam when using non-immigrant alien labor. Guam's principal 
contractors want there to be a level playing field with all 
participants playing by the rules.
    Senior Level Personnel. Management, engineering, administrative and 
supervisory personnel brought to Guam from the U.S. and elsewhere will 
have requirements beyond those of the workers. This is especially true 
since they will in many cases be engaged on family accompanied status. 
They will require higher level accommodation, medical facilities, 
schools and other services not now available in adequate supply. Some 
of these facilities could be made available by the private sector 
through encouragement of some kind. Because of timing, the federal 
government may need to incur some upfront cost with the idea of selling 
the facilities when major military construction is done. Some local 
private school officials might be persuaded to expand in the near term 
to accommodate the temporary surge.
    Medical. Guam Memorial Hospital is the only hospital that serves 
the civilian community on Guam. It is currently not JHACO certified and 
is in need of upgrades. This matter needs urgent attention in order to 
not deter senior managers and engineers from living and working on 
Guam.
    Trusting the foregoing discussion proves helpful to you during your 
deliberations concerning this important subject.

Sincerely,

Guam Contractors Association





James Martinez                    John M Robertson PE
President                         Chair, Committee on Government &
                                    Labor Relations



Copy:
Honorable Madeleine Bordallo
Honorable Felix Camacho, Governor of Guam
Mr. David Bice, Executive Director, Joint Guam Program Office
CAPT Paul Fuligni, Commander, NAVFAC Marianas
Ms. Maria Connelley, Director, Guam Department of Labor
Dr. Robert Underwood, President University of Guam
Ms. Mary Okada, President Guam Community College
Dr. Bert Johnston, Director GCA Trades Academy
Dr. Narissa Bretania-Schaffer, Superintendent Guam Public School System
                                 ______
                                 
A few words concerning the authors:
    James Martinez was born and raised on Guam. He has managed the Guam 
Contractors Association since 2001, first with title of Executive 
Director and now President. Under his leadership, the association has 
grown from 197 to 356 corporate members. He strengthened the 
relationship with the Associated Builders and Contractors to the point 
that the GCA is now the Guam Chapter of that national organization. He 
was instrumental in establishment of the GCA Trades Academy and became 
the first NCCER master trainer on Guam. He is responsible for the GCA 
Apprenticeship program.
    John M Robertson PE is from Houston, Texas and came to Guam in 1999 
as general manager of a multinational contracting organization. When 
that firm closed their Guam operation, he remained and formed two firms 
of his own. AmOrient Contracting Inc is a general contractor managing 
design and construction of military projects. AmOrient Engineering 
performs planning and engineering services for the military. He has 
been on the GCA Board of Directors since 1999. He was president for two 
years. He is the current Chairman of the Committee on Government and 
Labor Relations. He was instrumental in establishing the GCA Trades 
Academy and is its current Chairman, Board of Trustees. He is also on 
the Board of Directors for the Guam Post, Society of American Military 
Engineers.
                                 ______
                                 
    Mrs. Christensen. I would now like to call up our first 
panel of witnesses: Congressman Robert Underwood, President of 
the University of Guam; Ms. Maria Connelley, Director of the 
Guam Department of Labor; and the President of the Guam 
Community College, Ms. Mary Okada.
    The Chair would like to remind witnesses that your written 
statement will be submitted for the hearing record, and the 
timing lights on the table will indicate when your time is 
concluded.
    Mrs. Christensen. I now recognize Congressman Underwood to 
testify for five minutes.

 STATEMENT OF THE HONORABLE ROBERT A. UNDERWOOD, ED.D., FORMER 
       MEMBER OF CONGRESS, PRESIDENT, UNIVERSITY OF GUAM

    Mr. Underwood. Hafa adai and good afternoon to you, Madam 
Chairman, and our representative, Madam Bordallo; and I 
appreciate the opportunity to present my testimony on behalf of 
the University of Guam.
    As we all know and as you have outlined, the decade of the 
2010s will bring enormous changes to Guam, enormous challenges 
to Guam. We are going to see anywhere from 10 to 15 billion 
dollars expended, millions of square feet of office floor space 
constructed. Most of the people of Guam see this as a welcome 
opportunity. Many are opposed to it. And all are concerned that 
we have the opportunity to fully participate in the economy 
that will come with this new buildup.
    There will be a different economy of Guam in the decade of 
the 2010s. The challenge before us today is the need for labor. 
To date, most of the attention about labor has been focused on 
the need for construction trades and technical fields. In 
anticipation of the perhaps 15,000 construction jobs that are 
needed, we have seen many ideas: the lifting of H-2 caps, 
Department of Labor programs. The Guam Community College has 
been strongly involved. And everyone kind of agrees that it is 
important that these needs be met locally and regionally first 
before we bring in workers from foreign or even U.S. mainland 
sources. Collectively these efforts and a ``local first'' 
policy, as outlined by you, Madam Chair, is something that we 
all endorse and merit your support.
    But I believe we must look at Guam's labor needs in a much 
larger framework. The anticipated buildup will not only bring 
thousands of new workers, but it will bring in hundreds of 
professionals, people who will be working in a wide variety of 
fields, from engineering, to construction management, to 
accountants. There will be nurses, need for nurses, teachers, 
environmental specialists, technologists at all different 
levels, all requiring university level training.
    As the President of the only baccalaureate and master's 
degree granting program institution in Micronesia, I know there 
is only one place that has an apprenticeship program for 
professionals, and that place is the University of Guam. So 
while we talk about apprenticeship programs for workers, I 
don't think we are thinking about apprenticeship programs for 
those who are working in the professional fields.
    We are not sure of the number of professionals that we need 
for the coming new economy. Based on discussions with fellow 
educators and government planners and corporate representatives 
and military officials, we have some preliminary numbers. We 
know we need 60 new nurses, 200 new teachers, 50 business 
managers every year for the next decade. This will respond 
directly to the changed circumstances. We also know that there 
will be the need for 50 environmental specialists, 20 planners, 
130 technologists and 5 biologists for the Government of Guam 
alone.
    The numbers are preliminary and based on projected 
population growth. We don't know what the U.S. corporations 
that will be coming into Guam and what level of professionals 
they will bring to the island. But we do know that we need 
attention to this; and so, in conjunction with the need for 
professionals in the new economy, I ask for four specific 
things:
    First, we ask Congress to help us by expanding the analysis 
of future labor needs to include the needs for professionals 
and degree holders. We request that a specific study by the 
Government Accountability Office of professional needs for Guam 
and the region will help us prepare for the future and, more 
importantly, prepare our young people for the future. This 
report must review the demands of the new economy of the 2010s, 
taking into account public and private sectors and existing 
Federal policy on the funding and hiring of professionals in 
Federal contracts.
    Second, we ask the Congress for balance in the allocation 
of resources for training the labor force of the 2010s. We do 
not know what the appropriate balance is between investing in 
the training for trades and technical fields and for those who 
need degrees. There are many complicated issues to address. 
But, as we sit here today, there is no balance whatsoever. The 
University of Guam needs resources to meet the challenges of 
the new economy, and we ask that existing and new training 
programs be given the flexibility to address the needs for 
professionals and that all Federal efforts be required to 
specifically address how professional needs in the new economy 
of Guam will be met as a result of massive Federal spending.
    Third, Guam is a very special place ecologically. The 
anticipated changes for an island 220 square miles in size will 
create enormous challenges. We want to preserve our corral 
reefs, our unique plants and trees and special connection to 
the land. We do not want to be at some future date the subject 
of a cleanup process that we can avoid through careful planning 
today. And we ask the Federal Government to work with the 
university in environmental science and marine biology to 
develop the solutions necessary for the protection of the 
environment.
    Last, we ask that the military look to the university to 
meet the specialized and professional needs of their personnel. 
Currently, we are not given this opportunity on military bases 
because of the region-wide contracting arrangement of 
educational services by the Department of Defense. We are 
available for Guam military facilities and personnel, and we 
can work together to fashion a curriculum which will promote 
joint learning experiences that will strengthen civilian-
military relationships.
    As Guam rides the roller coaster of the new economy as we 
look into the decade of the 2010s, most of the construction 
jobs will ramp up very quickly and just as quickly ramp down. 
But the need for professionals will be stable, because you will 
need the professionals to sustain the new infrastructure and to 
provide needed services. If we don't provide those 
opportunities for local people or people in the region, it 
means that there will be another group of people, of newcomers. 
We won't be able to have a sustainable economy, an economy that 
builds strong civilian-military relationships, and we won't be 
able to sustain a healthy social economic structure on Guam.
    Our future depends upon this balance. We ask that you 
consider it. We ask that you strongly consider the idea and the 
notion of bringing balance to these resources that are applied 
to Guam.
    Thank you very much.
    Mrs. Christensen. Thank you, Congressman Underwood; and 
thank you for broadening the picture of the employment needs 
and the training needs for this military buildup.
    [The prepared statement of Mr. Underwood follows:]

      Statement of Robert Underwood, President, University of Guam

    Hafa Adai and Good Morning Madam Chair and Members of the Committee
    I am Robert Underwood, President of the University of Guam, and I 
am testifying on behalf of my home institution on ``Identifying Labor 
Solutions for the Guam Military Buildup.'' I thank the Subcommittee on 
Insular Affairs and the leadership of Congresswoman Christensen for 
addressing this very important issue for Guam.
    The next decade, the 2010s will bring enormous changes to Guam and 
we know that it will be a time of tremendous opportunity and 
significant challenges. Guam will witness the arrival of as many as 
20,000 military personnel and dependents plus another 20,000 
individuals who will be working in the new economy that Guam will have. 
We know that $10-15 billion will be expended and an unknown millions of 
square feet of floor space will be constructed. The anticipated scale 
of the change is so enormous that even the Department of Defense, 
America's largest bureaucracy, cannot manage the changes within its 
existing units. Special units, special legislation, special purpose 
entities and special arrangements have been established and more are 
being contemplated as the build up is implemented.
    The people of Guam will have many new employment opportunities, the 
island's infrastructure will be taxed beyond its current capacity. The 
land will be paved over and turned over. The subsurface water resources 
will be explored and exploited. Even the utilization of the air space 
above us is being reconfigured to accommodate dramatic increases in 
military traffic. Many people welcome the opportunities that these 
changes will bring. Some are afraid of the changes that will occur. All 
are concerned that the challenges will not be met and the opportunities 
will not be fairly distributed to the people of Guam. It is clear that 
we need special effort, special plans and special arrangements to 
ensure a successful transition to the new economy. These plans must 
simultaneously protect the land, enhance the quality of life and 
provide new opportunities for our young people. The 2010s will shape 
the nature of the society and economy of Guam for the balance of this 
century.
    The challenge before us today is the need for labor. To date, most 
of the attention about labor has been focused on the need to train for 
the construction trades and related technical fields. In anticipation 
of the need for 15,000 (perhaps more) construction workers, federal 
caps on H-2 workers for Guam have been lifted by Congress and federal 
funding will be directed towards workforce development programs and 
increased resources for institutions like the Guam Community College, 
the Guam Department of Labor and private efforts like the Guam 
Construction Trades Academy. Everyone acknowledges that it is important 
that these needs be met locally and regionally first before we bring in 
workers from foreign or even U.S. mainland sources. Collectively, these 
efforts and a ``local first'' policy merit your support.
    But I believe that we must look at Guam's labor needs in a much 
larger framework. The anticipated build up will not only require 
thousands of new workers in the trades, it will require hundreds of 
professionals and managers in a wide variety of fields. The pace of the 
build up, the challenge to the environment, the growth of the 
population require new professionals to work in the educational, health 
care, social welfare and environmental regulatory infrastructure of the 
island. This is in addition to the accountants, engineers, construction 
managers and information technology professionals who will be needed to 
manage the build up and sustain the new infrastructure for the 
foreseeable future. But unlike the construction trades and technical 
fields, there are few federally resourced apprenticeship programs for 
professional fields and little legislation is being contemplated in 
helping an insular area take advantage of these opportunities.
    As the President of the only baccalaureate and master's degree 
granting institution in Micronesia, I know where the majority of the 
apprenticeship programs for professionals lie. They are located on the 
campus that I now oversee. The University of Guam, through our 35 
majors and 15 masters represents the island's major institutional 
effort to train the professionals who will provide the capacity needed 
both before and after the buildup.
    We are not sure of the exact numbers of professionals needed for 
the coming new economy. Based on extensive discussions with fellow 
educators, government planners, corporate representatives and military 
officials, we have some preliminary numbers. For example, we know that 
we will need 60 nurses, 200 teachers and 50 business managers every 
year for the next decade. This will respond directly to the changed 
circumstances, the new economy and the need to replace an aging 
professional workforce. The University can currently keep pace with 
perhaps 50% of these needs. Within five years, we also know that we 
will need 25 special education teachers, 5 vocational rehab 
professionals, 50 environmental specialists, 20 planners and 130 
technologists and 5 biologists for the Government of Guam alone. We 
understand that the federal government will be hiring 40 environmental 
specialists in the next few years.
    These numbers are preliminary and are based more on projected 
population increases rather than the specific demands of the new 
economy. We know that the U.S. based corporations will bring in 
hundreds of managerial, administrative and engineering personnel to 
fulfill contract obligations. We believe that many if not most of these 
positions could be filled by local talent. Unlike the case of the 
construction trades and the need for imported labor, no one is 
forcefully advocating a policy to ``hire local'' or provide resources 
to train local residents to fill these positions. We do not propose a 
specific policy in this regard. But we do ask for four things that will 
help us respond to the military build in a way that builds up all of 
Guam, expands opportunities and enhances our lives as islanders and 
Americans:
    1.  First, we ask the Congress to help us by expanding the analysis 
of future labor needs to include the need for professionals and degree 
holders. We request that a specific study by the Government 
Accountability Office of professional needs for Guam and the region 
will help us prepare for the future and, more importantly, prepare our 
young people for the future. This report must review the demands of the 
new economy of the 2010's taking into account public and private 
sectors and existing federal policy on the funding of and hiring of 
professionals in federal contracts.
    2.  Second, we ask the Congress for ``balance'' in the allocation 
of resources for training the labor force of the 2010s. We do not know 
what the appropriate balance is between investing in the training for 
trades and technical fields and for degree programs. There are many 
complicated issues to address. Currently, there is little attention to 
training opportunities for professional fields. Today, there is clearly 
no balance whatsoever. The University of Guam needs resources to meet 
the challenges of the new economy. We ask that existing and new 
training programs be given the flexibility to address the needs for 
professionals and that all federal efforts be required to specifically 
address how professional needs will be met in Guam as a result of 
massive federal spending. We need to get started now, as it takes four 
years or more to train these critically needed professionals.
    3.  Third, Guam is a very special place ecologically. The 
anticipated changes for an island 220 square miles in size will create 
enormous environmental challenges. We want to preserve our impressive 
coral reefs, unique plants and trees and special connection to the 
land. We do not want at some future date to be the subject of a clean 
up process that we can avoid through careful planning today. We ask 
that the federal government work with the University in environmental 
science and marine biology to develop the solutions necessary for the 
protection of the environment.
    4.  Fourth, we ask that the military look to the University to meet 
the specialized and professional education needs of their personnel. 
Currently, we are not given this opportunity on military bases because 
of the region wide contracting arrangement of educational services by 
the Department of Defense. We are available for Guam military 
facilities and personnel and we can work together to fashion a 
curriculum that will promote joint learning experiences that will 
strengthen civilian-military relationships.
    As Guam rides the economic and social roller coaster of 2010s, the 
pattern of labor needs is clear. The construction jobs will rise 
quickly at the beginning of the next decade and almost as quickly 
decline before the end of the decade. The number of jobs that will be 
needed on a permanent basis in the new economy will be only a small 
fraction of that needed to build up the infrastructure. While we must 
ensure that the people of Guam should be given every opportunity to 
take these positions, the overwhelming majority of these jobs will 
leave the island.
    On the other hand, the professional positions that are needed will 
be of longer duration and offer more permanent opportunities for the 
people of Guam. The professional positions will be the backbone for a 
new and stronger economy in which the people of the island are full 
participants and will have taken full advantage of the opportunities. 
They will teach, they will nurse, they will manage the environment, 
they will plan the economy, they will manage new businesses and they 
will provide the basis for a healthy and robust economic and social 
structure. But they can only do so if they are trained and educated and 
if they are given the opportunity to enter expanded and new university-
level programs. If they are not given this opportunity locally, they 
will leave the island and they may still become accountants and nurses 
and engineers. Unfortunately, they will likely practice these 
professions elsewhere as newcomers take up these opportunities in Guam.
    There can be no alternative. An economy which is based on bringing 
in workers from foreign sources and importing professionals from the 
outside on a short-term basis can be legitimately defended, but is 
inefficient and unsustainable. However, if we know in advance that we 
can do something today that will ensure the fair distribution of 
opportunities in the next decade while we build a strong military-
civilian relationship, then we must act. I trust that we will act in 
partnership and provide these professional opportunities for the people 
of Guam.
    Si Yu'os ma'ase' put I atension-miyu. Thank you very much.
    I am prepared to answer any questions you may have.
                                 ______
                                 
    Mrs. Christensen. The Chairwoman now recognizes Ms. 
Connelley to testify for five minutes.

          STATEMENT OF MARIA S. CONNELLEY, DIRECTOR, 
                    GUAM DEPARTMENT OF LABOR

    Ms. Connelley. Thank you for this opportunity to appear 
before you to present my testimony on identifying solutions for 
the Guam military buildup.
    Limitations of the labor pool and the cost to develop 
specialized skills to meet the needs of the impending growth 
have prompted Guam's Civilian Military Task Force Labor 
Subcommittee, led by the Guam Department of Labor, to adopt 
strategies for which to provide strategic guidance. Efforts by 
GDL, the Guam Department of Labor--and I would like to list 
them now:
    Strategic planning and partnership at the national level 
with the Interagency Group on Insular Areas and the Federal 
regional council in San Francisco with the formal mechanism for 
coordinating the activities of the numerous Federal agencies 
with programs for the island.
    Second, within the last year and a half, we have seen so 
many on-site visits by Federal agencies, from USDOL, DOI, 
USDOE, EEOC, HHS, OSD, Naval Audit, DOD, OEA, Navy--to name a 
few.
    And, third, USDOL and DOI office of Insular Affairs 
providing technical assistance and training in developing a 
clear workforce strategy to achieve goals and actionable 
strategies. We have been collaborating and cross planning, 
insular partnership.
    During the 8th Micronesian Chief Executives Summit held in 
CNMI in November of 2007, the chief executives passed a 
resolution to establish the Regional Workforce Development 
Council, which was tasked with developing a 5-year regional 
workforce plan and holding strategic planning and 
implementation sessions biannually within the Micronesian 
Islands. Leveraging local, Federal, private funds in support of 
administrative and travel needs for RWDC are priority areas to 
ensure that the chief executives' workforce initiatives are 
accomplished.
    In September, 2008, last week, on behalf of the RWDC, the 
Guam Department of Labor submitted a proposal for Federal grant 
funding through the regional innovation grant. The purpose is 
to undertake strategic action planning to maximize 
opportunities and minimize challenges posed by recent regional 
economic shock, including upheaval in partner economies--
tourism and garment industry declines--and planned military 
expansion on Guam.
    The Guam Department of Labor has taken an active role in 
providing peer-to-peer training to our neighboring island 
jurisdiction. At the request of the U.S. Department of Labor 
ETA, Guam used its data capturing infrastructure to create an 
integrated workforce system for the CNMI. We are also in the 
process of providing technical assistance and training, doing 
the same thing for the Republic of Palau.
    Alien labor. With impending military growth, the Department 
has seen a significant increase in the number of H2B 
applications. Efforts continue to streamline the processing of 
H2B applications and strengthen collaborative efforts with 
Federal labor enforcement entities located on Guam, such as the 
FBI, the U.S. Customs and Border Patrol, U.S. Citizenship and 
Immigration Service.
    Apprenticeship and pre-apprenticeship training. In 2004, 
the first Workforce Investment Act Apprenticeship Training 
Pilot Program partnership began with the Guam shipyard and the 
Guam Port Authority and has since invested nearly $1.4 million 
in workforce funding to participant salaries, benefits and 
educational assistance.
    Guam has also expanded its apprenticeship training through 
partnership with the Guam Hotel and Restaurant Association, the 
Guam Waters Works and the Guam Contractors Association Trades 
Academy. Through Federal subsidies, the Department also 
supports on-the-job training and work experience programs with 
the private sector.
    Guam Registered Apprenticeship Program. In 2006, the Guam 
Registered Apprenticeship Program was created through local law 
for the purpose of authorizing the Department of Labor to 
contract with businesses on a formalized apprenticeship 
training system that offers tax incentives in exchange for 
hiring and training individuals in demand-driven occupations. 
To date, the Guam Department of Labor has worked with employers 
to train 41 apprentices and certify more than $1.2 million in 
tax rebates.
    Next, Youth Initiative, Learning Continuum. Partnering with 
the Guam Public School System, the Department of labor 
established the Passport to Careers, a year-round learning 
continuum program designed to take youth through a pipeline 
system, preparing them for more structured training and 
providing them with employability skills to meet the needs of 
employers. This program provides the opportunity for Guam's 
youth to participate in the job market identified by the power 
of e3 within the construction trades, allied health, education 
and business technology.
    1,655 GPSS students participated in the Passport to Careers 
program. 164,363 completed hours in the world of work at a cost 
of 973,000 of WIA funds.
    Incumbent training. The Governor of Guam also recognizes 
the need to develop the skills of employees currently in the 
workforce who provide critical services to the local community. 
Efforts are under way to revitalize the former Guam Joint 
Training Board, a collaborative entity of Federal and local 
government human resources personnel. This board would be 
tasked with leveraging resources and assisting the Government 
of Guam agencies with ascertaining their manpower and human 
resources needs.
    Dislocated worker. The Department has formed a partnership 
with the Airman and Family Readiness Center, Andersen Air Force 
Base, Guam, to apply Federal funding under the dislocated 
workers program to train veterans and military spouses through 
the One Stop Career Center. From 2006 to present, 98 military 
spouses received service at the One Stop Career Center and over 
$106,000 tuition fee paid to the Guam Community College and 
University of Guam for retraining.
    Accountability. Internal controls and accountability have 
also remained a priority at the Department. At the direction of 
Governor Camacho in 2005, the Agency for Human Resources 
Development and its Federal grant funding was reorganized under 
the purview of the Guam Department of Labor. Since the 
realignment and transformation, the Guam Department of Labor 
reduced disallowed program costs by 99 percent and was taken 
off high-risk grantee status by the Guam Department of Labor.
    The Guam Department of Labor also continues to receive 
consistent increases in Workforce Investment Act funding, from 
$3.4 million in program year 2004 to $5.2 million in program 
year 2007.
    Data Consortium/Workgroup. Guam and the insular areas 
suffers from a lack of current, consistent and regularly 
maintained data needed to make sound decisions relating to 
labor market and economic development trends. Efforts to 
address this critical need include the Department of Labor's 
involvement in a tri-agency partnership with the Bureau of 
Statistics and Plans and University of Guam and data collection 
in programs such as the HIES report, the 2010 Census project 
preparation, the Civilian Labor Force Survey and the 2008 
Micronesian Survey.
    In conclusion, Madam Chairwoman, this is an overview of the 
activities of the Guam Department of Labor. We recognize that 
our commitment must be demonstrated at all levels, Federal, 
regional and local. We recognize that in order for current and 
future workforce to reap the benefits of the military buildup, 
we must look at the temporary foreign workers to fill the 
immediate labor needs while developing apprenticeships, 
internships and on-the-job training in demand occupations.
    I thank you for the opportunity to testify before this 
distinguished body today to share Guam's labor solutions and 
respectfully request your support as we pursue Federal 
resources to augment the specialized training required of our 
workforce to meet the demands.
    The Guam Department of Labor for fiscal year 2010 OMB 
request outlines the $23.2 million in apprenticeship funding 
and talent development that--
    Mrs. Christensen. Ms. Connelley, I need you to wrap up.
    Ms. Connelley. We thank you in advance.
    Mrs. Christensen. Thank you. We did give you a little extra 
time. But thank you for your testimony.
    [The prepared statement of Ms. Connelley follows:]

  Statement of Maria S. Connelley, Director, Guam Department of Labor

    Good Morning Madam Chairwoman, distinguished members of the Sub-
Committee, ladies and gentlemen. Thank you for this esteemed 
opportunity to appear before you to present my testimony on identifying 
solutions for the Guam military buildup.
    It is no secret that Guam is on the cusp of unprecedented growth. 
The anticipated realignment of military personnel and their dependents 
from Okinawa to Guam, coupled with the infrastructure needed to support 
both the civilian and military community is viewed as the single 
largest expansion the island has experienced since World War II. A 
recent transportation study estimates Guam's current population of 
173,000 to grow by 47,000 or approximately 27% in the next five years. 
For an island that spans 30 miles long by 8 miles wide, it is not 
difficult to imagine both the opportunities and challenges the military 
build up poses now and for years to come. Of paramount concern is 
Guam's capacity to meet the labor demands of such growth. The island's 
current workforce is 60,110 and the unemployment rate as of September 
2007 is 8.3%. It is estimated anywhere from 10,000 to 20,000 additional 
workers are needed to fill the skilled labor force in the construction 
industry alone. Utilizing the island's current workforce, Guam is only 
able to fill 10-15% of this demand. Limitations of the labor pool and 
the cost to develop specialized skills to meet the needs of the 
impending growth have prompted the CMTF Labor Subcommittee, led by Guam 
Department of Labor (GDOL), to adopt strategies, which provide 
strategic guidance, and resources to strengthen and sustain the 
viability of Guam's local workforce.
    We recognize, however, that our goals cannot be achieved alone. 
What is required is a collaborative effort and strengthened 
partnerships at the federal, regional and local level. Mirroring the 
national strategic direction of U.S. Department of Labor, Employment & 
Training Administration (USDOL ETA), GDOL adopted the power of E3 
(Education, Employment and Economic Development) into its workforce 
development mission. In an effort to address the needs of the military 
and the civilian population in this expansion, Guam Governor Felix 
Camacho issued Executive Order No. 2006-10 establishing the Civilian 
Military Task Force (CMTF). The CMTF is comprised of representatives 
from the local government, military, and private sector all of whom are 
part of developing an integrated comprehensive master plan. Eleven (11) 
Sub-Committees have been established under the CMTF and they are Health 
and Social Services, Public Safety, Education, Economic Development, 
Labor, Environment, Ports & Customs, Infrastructure, Natural Resources, 
Housing, and Social/Cultural.
    Efforts by GDOL and the CMTF have resulted in the following:
    <bullet>  Established partnership at the national level with the 
Interagency Group on Insular Affairs (IGIA)
    <bullet>  Quarterly meetings with the Federal Regional Council 
(FRC) to include USDOL Employment and Training Administration
    <bullet>  On-Site visits by regional representatives from U.S. 
Office of Federal Contracts Compliance Programs, Equal Employment 
Opportunity Commission (EEOC), U.S. Citizenship and Immigration 
Service, State Department, Bureau of Apprenticeship Training and U.S. 
Department of Education
    <bullet>  Improved working relationship with USDOL ETA Region Six
    In 2004, Guam received approval from Region VI of the U.S. DOLETA 
to implement its five-year strategic plan to establish apprenticeships 
and life-long learning models and the shifting of existing workforce 
training dollars from soft skills to training in demand-driven 
industries.
Collaboration and Cross Planning:
<bullet>  Insular Partnerships:
    Opportunities for collaboration and joint planning have increased 
due to the dynamic growth agenda. The discussions and various meetings 
have prompted collaboration and cross-planning teams to begin drafting 
strategies and work plans to address the growth agenda. The cross 
planning provides a much needed opportunity to maximize resources 
across partners and programs both public and private that are essential 
for carrying out the vision. The challenge for the people of Guam, as 
well as the residents of the neighboring islands in the Commonwealth of 
the Northern Marianas, the Federated States of Micronesia and the 
Republic of Palau is how best to translate these unprecedented 
opportunities into concrete benefits for our respective communities, 
not just during the construction period, but on a sustainable basis 
after the military buildup.
    Recognizing this growth as mutually beneficial to the region, 
Governor Camacho in 2004 called on the Chief Executives in Western 
Micronesia to come together to formulate unified policies and 
strategies that address current infrastructure capacities, needs and 
safeguards. The Western Micronesia Chiefs Executive Summit has since 
expanded to include the Federated States of Micronesia (FSM), Republic 
of the Marshall Islands (RMI) and others and continues to meet on a bi-
annual basis.
    During the 8th, Micronesian Chief Executives Summit held in CNMI in 
November 2007, the Chief Executives passed a resolution to establish 
the Regional Workforce Development Council (RWDC), which was tasked 
with developing a five-year regional workforce plan and holding 
strategic planning and implementation sessions biannually within the 
Micronesian Islands. Leveraging local/federal/private funds in support 
of administrative and travel needs for RWDC are priority areas to 
ensure that the Chief Executives' workforce initiatives are 
accomplished.
    The RWDC involves representatives from Education, Employment and 
Economic Development to carry out the vision of the Micronesian Chief 
Executives for Workforce Development in the Region. The first RWDC 
meeting held on January 28 & 29th was designed to facilitate 
communications among all members and stakeholders within the region 
that lead to an ongoing effort for improved regional workforce 
development planning and implementation.
    In June 2008, on behalf of the RWDC, GDOL submitted a proposal for 
federal grant funding through the Regional Innovation Grant for such 
purposes. The purpose is to undertake strategic action planning to 
maximize opportunities and minimize challenges posed by recent regional 
economic shocks, including upheaval in partner economies (tourism and 
garment industry declines) and planned military expansion on Guam.
    USDOL ETA's vision to strengthen our regional communities through a 
WIRED framework launched the ``Peer-to-Peer Technical Assistance 
Training'' for the Pacific Jurisdiction with Region VI. Region VI 
embarked on the opportunity to promote efficiency by identifying staff 
within the region to provide training and technical assistance in areas 
demonstrated as a best practice. The probability of success is greater 
when utilizing best practices among regional communities given that the 
uniqueness, culture, and challenges in workforce issues that are common 
throughout the jurisdiction. An example of a successful outcome of this 
peer-to-peer training was the 2006 deployment of a mirrored version of 
the Guam Workforce System with the Commonwealth of the Northern Mariana 
Islands (CNMI) now known as CNMI Workforce System. In May of 2007, 
USDOL ETA Region VI accepted CNMI's first ever WIASRD report, a 
reflection of CNMI's commitment to accountability.
    In FY2006, Palau received a budget cut in WIA dollars resulting in 
the delay of deploying the system for their island. With the success of 
CNMI's report, the desire to move the same system to Palau was placed 
as a priority for both U.S. Department of Labor Region VI and Guam. In 
line with our State Plan, Guam in conjunction with Region VI, 
identified funds in their statewide monies and funded this much needed 
project.
<bullet>  Local partnerships
    Education, economic development and employment partnerships remain 
the catalyst for all our programs and initiatives. By shifting the 
emphasis of workforce training from soft skills to vocational 
opportunities in demand-driven industries, GDOL has been able to 
establish programs based on the true demands of the labor market.
    Guam's priorities, as outlined in the USDOL ETA approved strategic 
plan include:
      <all>  Enhancing Guam's One-Stop Career Center program delivery 
for employers, employees and career strategies
      <all>  Establish a fully integrated workforce investment system
      <all>  Adopting and integrating the proposed workforce learning 
continuum as the framework for the Power of E3
      <all>  Collaboration with businesses and other non-governmental 
entities
      <all>  Life Long Learning
    Using these priorities, GDOL has since developed and continue to 
administer the following programs:
Alien Labor
<bullet>  Alien Labor Processing and Certification Division (ALPCD)
    The ALPCD continues to streamline its efforts in the processing of 
H2B applications on Guam. With impending military growth, ALPCD has 
seen a significant increase in the number of the H2B applications. 
Strengthening collaborative efforts between the U.S. Citizenship and 
Immigration Service (USCIS), provides opportunity for GDOL to 
streamline processes and improve enforcement efforts in complying with 
local and federal mandates. The following page represents the total 
number of number of H2B on Guam to include occupations and 
miscellaneous statistics:
[GRAPHIC] [TIFF OMITTED] 44613.001

.epsWorkforce Development and Training
<bullet>  Apprenticeships and Pre-apprenticeships
    Well before the announcement of military realignment plans for 
Guam, the island recognized the need to diversify industries, promote 
economic development and increase the skilled workforce. In 2004, the 
first Workforce Investment Act apprenticeship training pilot program 
partnership began with the Guam Shipyard and Guam Power Authority. In 
line with the vision of USDOL ETA for supporting demand driven 
occupations, apprenticeship training continues to be a key workforce 
training model in Guam's state plan and plans of work. Since inception, 
nearly $1.4 million in WIA funding has been invested in participant 
salaries, benefits and educational assistance.
    Guam has also expanded its apprenticeship training through 
partnerships with the Guam Hotel and Restaurant Association, the Guam 
Contractors Association and the Guam Trades Academy. Through federal 
subsidies, GDOL also supports on-the job training and work experience 
programs with the private sector.
    On July 12, 2007, the U.S. DOLETA issued Training and Employment 
Guidance Letter (TEGL) 2-07 listing 13 states including Guam that 
continue to leverage Workforce Investment Act funds to support 
Apprenticeship Training.
<bullet>  Guam Registered Apprenticeship Program
    Public Law 28-142 was signed into law on July 18, 2006 by Governor 
Felix Camacho. This law outlines an act to add a new Chapter 44 to 
Division 3 of Title 22 Guam Code Annotated to create a Guam Registered 
Apprentice Program (GRAP) and to authorize the GDOL to contract with 
businesses pursuant to U.S. Department of Labor, Bureau of 
Apprenticeship and Training Program Standards, and to provide employer 
incentives for the development of a skilled workforce.
    The intended purpose and objectives of the law and these Rules and 
Regulations is to establish the best possible method for developing 
employee skills through a formalized apprenticeship training system 
that is proven cost effective, goal oriented, and designed to meet the 
specific skill needs of the employer. The local mandate is in place to 
encourage businesses to receive tax incentives in exchange for hiring 
and training individuals in demand-driven occupations. The law also 
appoints the GDOL as the agency charged with formulating and 
administering program regulations. To date the following statistics are 
provided:
[GRAPHIC] [TIFF OMITTED] 44613.002

.eps<bullet>  Youth Initiative--Learning Continuum
    Passport-to-Careers: Passports-to-Careers is the youth umbrella 
program led by the Guam Public School System (GPSS), Curriculum & 
Instruction staff taking the lead, OSCC partners are diligently 
coordinating and developing the ``Passport-to-Careers'' program to 
bring approximately 500 high school students into the work place for 
career exploration activities. On 7 July 2005, vocational education 
students reported to private/public sector employers based on industry 
clusters. Participants were afforded the opportunity to career 
explorations similar or related to their vocational education classroom 
environment. After summer employment, students return to the 
classrooms, and encouraged to continue their vocational education 
career path. Through the youth Passport to Careers program, the 
pipeline for youth to enter into more structured training with 
certification is available. Youth who enter the Passport to Careers are 
afforded an opportunity to be exposed to the workplace in demand driven 
occupations such as construction, Information Technology, Allied 
Health, Education and others.
    The year round learning continuum takes a youth through a pipeline 
system, preparing them for more structured training and providing them 
with employability skills to meet the needs of employers. The goal of 
PTC is to prepare high school students in the Career Path with skills 
and competencies to enter the workforce. This program provides the 
opportunity for Guam's youth to participate in the job market 
identified by the power of e3 within the: Construction Trades, Allied 
Health, and Business Technology industries.
[GRAPHIC] [TIFF OMITTED] 44613.003

.eps<bullet>  One Stop Career Center
    Guam's One-Stop Career Center (OSCC) continues to provide job 
seekers; students and employers access a convenient, reliable, up-to-
date broad range of coordinated employment, training and educational 
services, program information, services and resources through a full 
service One-Stop Career Center System and a network of satellite sites 
to improve employment outcomes.

[GRAPHIC] [TIFF OMITTED] 44613.004


    .epsIn April 2005, the Guam Department of Labor launched their 
website providing resources to our customers via the internet. In July 
2005, the GDOL launched their on-line job bank resulting to an increase 
of on-line customers. As of June 2008, the GDOL has received a total of 
11,781 on-line job applications.
[GRAPHIC] [TIFF OMITTED] 44613.005

.eps<bullet>  Incumbent Training--Talent Development
    The government of Guam also recognizes the need to develop the 
skills of employees currently in the workforce who provide critical 
services to the local community. Efforts are underway to revitalize the 
former Guam Joint Training Board, a collaborative entity of federal and 
local government human resource personnel. This Board would be tasked 
with leverage resources and assist the government of Guam agencies with 
ascertaining their manpower and human resource needs for the military 
build-up.
    As a result of this meeting, the focus expanded to include various 
critical needs of government of Guam agencies. After conducting a 
manpower/human resource needs assessment, the group was divided into 
subcommittees comprised of:
        <bullet>  Talent Development Subcommittee
        <bullet>  Standards for Employment Subcommittee
        <bullet>  Apprenticeship Subcommittee
<bullet>  Dislocated Worker Training:
    A review of current WIA law and regulations indicates that there is 
limited local policy guidance on serving returning military service 
members (non-retirees) or military spouses as dislocated workers; and 
this population may be served with the WIA Adult Formula Grant funds in 
accordance with the requirements of that program. Unlike the WIA Adult 
Program, however, the WIA Dislocated Worker Formula Grant Program has 
basic eligibility criteria that must be met for a participant to be 
considered a dislocated worker. The Jobs for Veterans Act (PL 107-288) 
provides an emphasis on serving by establishing a priority of service 
for veterans and certain spouses in all employment and training 
programs, administered by the U.S. Department of Labor.
    The WIA Dislocated Worker Formula Grant Program is one of the 
affected programs, and guidance was issued in September 2003 Training 
and Employment Guidance Letter (TEGL) No. 5-03 explaining how the 
veterans' priority of service was to be implemented in all employment 
and training programs, in which it was noted, that the veterans' 
priority must be applied consistent with programmatic eligibility 
standards and other priorities mandated by statute, and thus, in order 
to be served in the dislocated worker program, a participant must meet 
the statutory eligibility criteria to qualify as a dislocated worker 
and then, if the participant is a veteran or a spouse of certain 
veterans, must be given priority over dislocated workers who are non-
veterans.
    In line with the Dislocated Worker Program intent, GDOL formed a 
partnership with the Airman and Family Readiness Center, Andersen Air 
Force Base, Guam. The partnership promotes training and development 
opportunities to veteran's and military spouses through the One Stop 
Career Center. The following statistics are the number of military 
spouses that have been served to date:
[GRAPHIC] [TIFF OMITTED] 44613.006

.epsAccountability & Transparency:
    SINGLE AUDIT REPORTS--OVERALL REDUCTION IN DISALLOWED COSTS (FY02-
FY05): 99.82% AT FINAL DETERMINATION ISSUED BY GRANTOR
    FY2002-FY2004: In February of 2005, the GDOL took over the 
financial administration of the Agency for Human Resources Development 
in line with the Governor's Executive Order. The transition of 
administrative functions encompass a variety of outstanding issues with 
U.S. Department of Labor (federal grantor) specifically responses to 
Single Audit Reports for FY2002 thru FY2004.
    In 2005 GDOL submitted a response to the Initial Determination 
which comprised of $1,479,593.00 in disallowed costs. As a result of 
this response the GDOL was able to demonstrate allowable activity 
amounting to $239,852.00. In 2006, U.S. Department of Labor issued a 
final determination in the amount of $1,239,471.00 in disallowed costs 
and a demand for payment was issued. Upon receipt of the final 
determination the department issued a ``Notice to Appeal'' and 
requested for retesting of documents submitted to the auditor. A result 
of this request determined that $614,258.00 previously disallowed was 
in fact allowable, a 50.44% in reduction.
    FY2005: On April 17, 2007, USDOL ETA issued the Final Determination 
resulting in a total amount of $2,240.00 determined as disallowed 
costs.
    FY2006: On March 31, 2008, USDOL ETA issued the Final Determination 
resulting in a total amount of $1,234.00 determined as disallowed 
costs.
[GRAPHIC] [TIFF OMITTED] 44613.007

.eps[GRAPHIC] [TIFF OMITTED] 44613.008

    .epsAs a result of the milestones achieved and internal fiscal and 
data controls in place, GDOL reduced its disallowed costs by 99% for 
Fiscal Years 2002-2005 and was taken off high-risk grantee status by 
USDOL. The Department also continues to receive consistent increases in 
Workforce Investment Act funding, from $3.4M in PY2004 to $5.2M in 
PY2007.
Data Consortium/Workgroup:
    Guam and the insular areas suffers from a lack of current, 
consistent and regularly maintained data, needed to make sound 
decisions relating to labor-market and economic development trends. 
There is need for a regional data plan to ensure that, ongoing, 
regular, consistent, accurate information is collected and shared to 
ensure that policy decisions are based on fact, not supposition. In 
line with the Workforce Investment Act 2007-2009 State Plan and Plans 
of Work (POW) Goal 2, the Labor technical team continues to meet with 
other government partners in updating and streamlining data collection 
efforts. Several strategies for data collection include a harmonized 
data reporting system and a collaborative partnership for consistent 
and validated data. Several strategies and upcoming data collection 
efforts as follows:
    <bullet>  Household & Income Employment Survey (HIES) & Funding 
availability
    <bullet>  2010 Census project preparation
    <bullet>  Civilian Labor Force Survey (CLFS)
    <bullet>  2008 Micronesian Survey
Conclusion
    With the impending military buildup before us, we are called to 
expand our focus and reach beyond our partnership with the federal 
government, and into the Pacific region. GDOL continues to play an 
active role in the Regional Workforce Development Council, the Civilian 
Military Task Force and others. Additionally, we must educate local 
employers about ensuring a safe and healthful working environment, fair 
treatment and equal rights for employees, and timely compensation for 
services rendered. We recognize that in order for our current and 
future workforce to reap the benefits of the military buildup, we must 
look at temporary foreign workers to fill the immediate labor needs 
while developing apprenticeships, internships and on-the-job training 
in demand-driven occupations for the future and sustainability of our 
island people.
    Madam Chairwoman, this is an overview of the activities at the Guam 
Department of Labor. I look forward to responding to any questions you 
may have.
                                 ______
                                 
    Mrs. Christensen. The Chair now recognizes Ms. Okada for 
five minutes.

           STATEMENT OF MARY A.Y. OKADA, PRESIDENT, 
                     GUAM COMMUNITY COLLEGE

    Ms. Okada. Hafa adai, Congresswoman Christensen, 
Congresswoman Bordallo.
    Greetings from the island of Guam. It is indeed an honor to 
be here this afternoon to provide testimony to the Subcommittee 
in identifying labor solutions for the Guam military buildup.
    Over a year ago, the Guam Community College submitted 
written testimony to the Subcommittee panel on insular affairs 
relative to the college's role in preparing Guam for the U.S. 
military buildup. After submitting such testimony, we were 
fortunate to have the congressional delegation visit our 
campus, showing firsthand GCC's current capacity and our 
ability to grow our facilities to meet the workforce needs of 
Guam.
    Since then, the Guam Community College has immersed itself 
with several discussions and activities with organizations such 
as the Joint Guam Program Office and various subcommittees of 
the Civilian Military Task Force.
    In addition to these two important organizations, we are 
working closely with Guam's business industry as well as our 
local government agencies to ensure that the Guam Community 
College is able to do its part to provide a well-trained and 
educated workforce to meet the island's expanding needs. The 
college continues to solidify our relationship with the Guam 
Contractors' Association in preparing the workforce for Guam's 
construction boom. Both GCA and GCC are looking at the future 
of the island's construction business and have plans to recruit 
students beginning with our middle school so they gain a better 
understanding of what true opportunities are available in the 
construction fields. This recruitment and education of our 
program opportunities plays a pivotal role in ensuring the 
future of our workforce. But our efforts must not stop here. We 
are committed to joining forces to educate our residents on the 
available opportunities this military buildup will bring to our 
territory.
    In addition to preparing for Guam's construction boom, as 
Guam's only community college that offers comprehensive 
programs that lead to an associate's degree or certificate in 
over 50 specialized fields of study, we are continuously 
identifying the changes needed to current curriculum and 
anticipating the establishment of new programs. With the 
increase of business partners that will rely on skilled worker, 
the college will continue to be responsive to their needs and 
the requirements of our growing community. Recipients of these 
training programs are widespread, meeting the demands of our 
civilian as well as our military communities.
    As participants of the Interagency Group on Insular Areas, 
the college has been successful in identifying and obtaining 
additional resources to support many of our programs. For 
instance, the college recently received a college access grant 
that will provide educational opportunities for at-risk low-
income students. This will strengthen our commitment in 
providing information and services to students for entry into 
postsecondary education. This recruitment of at-risk students 
into postsecondary education is essential for all phases of the 
military buildup--pre-construction, construction and post 
construction.
    We recognize the importance of training and educating our 
residents on Guam so that they are able to compete in the labor 
market. Without the increase in this recruitment, we will be 
unable to sustain the future labor market needs with the 
additional jobs that will be available.
    Planning for Guam's future growth, a few weeks ago the 
college broke ground on the construction of a new allied health 
center that will provide the necessary classroom space for our 
allied health programs, while augmenting laboratory space for 
our science programs. This new project will help to address 
health education for our island. The new center will provide an 
additional 24,000 square feet of classroom, laboratory and 
office space to the college.
    This is the first step in increasing our capacity at the 
college. With the completion of this building, the college will 
pursue other health occupational programs. Our current capacity 
does not allow this expansion of programs without the 
additional space.
    Most recently, the college obtained another construction 
grant to support the expansion learning resources for our 
students. Having expansive resources for our students is 
critical to success of student learning outcomes, continued 
increases in enrollment and retention of current students.
    We appreciate the opportunity to provide input and be part 
of the solution that addresses Guam's labor shortage. The Guam 
Community College continues to be available to participate and 
become an active member of the IGIA's working committee that 
will allow GCC to assist the IGIA meet the goals and objectives 
outlined to address labor issues as a result of this 
unprecedented growth.
    We thank the Committee for providing Guam Community College 
with the opportunity to provide this testimony. We remain 
confident that through our collaborative efforts of the Federal 
Government, the Government of Guam, the private sector and the 
people of Guam, we can make this massive endeavor a success for 
Micronesia.
    As a unified voice on Guam, we continue to support Governor 
Felix P. Camacho's contention that what benefits the U.S. 
military must benefit every man, woman and child who calls Guam 
home.
    Chairwoman Christensen, we invite you to come to the 
college and witness the continued growth of the Guam Community 
College. Please visit our campus whenever possible to see the 
dedication and commitment we have made to ensure the success of 
our island. If there is any assistance or support that the Guam 
Community College can provide, please feel free in letting me 
know. I commit to you our ability to serve as part of the 
solution in addressing Guam's labor shortage as a result of 
Guam's impending military buildup.
    Again, on behalf of the Guam Community College Board of 
Trustees, our Board of Governors, faculty, staff, 
administrators, but most especially our students, un Dangkolu 
na Si Yu'os Ma'ase for providing the Guam Community College 
with this opportunity to provide our testimony. We look forward 
to working with you for the benefit of our people and the 
continued success of our students. Thank you.
    Mrs. Christensen. Thank you, Ms. Okada. I look forward to 
coming back and seeing the progress you are making. I was 
impressed with the first visit.
    [The prepared statement of Ms. Okada follows:]

    Statement of Mary A.Y. Okada, President, Guam Community College

    Hafa Adai Congresswoman Christensen and members of the Subcommittee 
on Insular Affairs,
    Greetings from the Island of Guam! It is indeed an honor to be here 
this afternoon, to provide testimony for the subcommittee in 
``Identifying labor solutions for the Guam military build-up.''
    Over a year ago, the Guam Community College (GCC) submitted written 
testimony to the subcommittee panel on Insular Affairs relative to the 
college's role in preparing Guam for the U.S. military buildup. After 
submitting such testimony, we were then fortunate to provide a campus 
visit to Congresswoman Donna Christiansen and Guam's U.S. Delegate, 
Congresswoman Madeleine Bordallo. During the Congressional Delegates 
visit to our campus, we were able to show first-hand GCC's current 
capacity and our ability to grow our facilities to meet the workforce 
development needs of Guam.
    Since then, the Guam Community College has immersed itself with 
several discussions and activities with organizations such as the Joint 
Guam Program Office and various subcommittees of the Civilian Military 
Task Force. In addition to these two important organizations, we are 
working closely with Guam's business industry as well as our local 
government agencies to ensure that the Guam Community College is able 
to do its part to provide a well-trained and educated workforce to meet 
the island's expanding needs. The college continues to solidify our 
partnership with the Guam Contractors' Association (GCA) in preparing 
the workforce for Guam's construction boom. Both GCA and GCC are 
looking at the future growth of the island's construction business and 
have plans to recruit students beginning with our middle school 
students to learn what true opportunities are available in the 
construction fields. This recruitment and education of our program 
opportunities plays a pivotal role in ensuring the future of our 
workforce. But our efforts must not stop there. We are committed to 
joining forces to educate our residents on the available opportunities 
this build up will bring.
    In addition to preparing for Guam's construction boom, as Guam's 
only community college that offers comprehensive programs that lead to 
an associate degree or certificate in over 50 specified fields of 
study, we are continuously identifying the changes needed to current 
curriculum and anticipating the establishment of new programs. With the 
increase of business partners that will rely on skilled workers, the 
college will continue to be responsive to their needs and the 
requirements of our growing community. Recipients of these training 
programs are widespread, meeting the demands of our civilian as well as 
military communities.
    As participants of the Interagency Group on Insular Areas (IGIA), 
the college has been successful in identifying and obtaining additional 
resources to support many of the programs. For instance, the college 
recently received a College Access Grant that will provide educational 
opportunities for at-risk low income students. This will help 
strengthen our commitment in providing information and services to 
students for entry into postsecondary education.
    A few weeks ago, the college broke ground on the construction of a 
new Allied Health Center that will provide the necessary classroom 
space for our Allied Health Programs, while augmenting laboratory space 
for our Science Programs as well. This new project will help to address 
health education for our island. The new center will provide an 
additional 24,000 square feet of classroom, laboratory, and office 
space to the college. This is the first step in increasing our capacity 
at the college. With the completion of this building, the college will 
pursue other health occupation programs.
    Most recently, the college obtained another construction grant to 
support learning resources for our students. The resources are critical 
to continued increases in enrollment and retention of current students.
    We appreciate the opportunity to provide input and to be a part of 
the solution that addresses Guam's labor shortage. The Guam Community 
College continues to be available to participate and become an active 
member of the IGIA's working committee that will allow GCC to assist 
the IGIA meet the goals and objectives outlined to address labor issues 
as a result of Guam's unprecedented growth.
    We thank the committee for providing Guam Community College with 
the opportunity to provide this testimony. We remain confident that 
through the collaborative efforts of the Federal Government, the 
Government of Guam, the private sector, and the people of Guam--we can 
make this massive endeavor a success for Micronesia. As a unified voice 
for Guam, we continue to support Governor Camacho's contention that 
what benefits the U.S. Military must benefit every man, woman and child 
who calls Guam home.
    Chairwoman Christiansen and members of the Subcommittee on Insular 
Affairs, we invite you to witness the growth of the Guam Community 
College. I invite you to visit our campus whenever possible, to see the 
dedication and commitment that we have made to ensure the success of 
our island. If there is any assistance or support the Guam Community 
College can provide your committee, please feel free in letting me 
know. I commit to you our ability to serve as a part of the solution in 
addressing Guam's labor shortage as a result of Guam's impending 
military buildup. We look forward to working with you and members of 
your subcommittee in developing a wholesome plan that will benefit all 
shareholders--more importantly the citizens of Guam and Micronesia.
    Again, on behalf of the Guam Community College Board of Trustees, 
Board of Governors, faculty, staff, administrators, but most especially 
our students. un Dangkolu na Si Yu'os Ma'ase for providing the Guam 
Community College with this opportunity to provide our testimony to the 
Subcommittee on Insular Affairs. We look forward to working with you 
for the benefit of our people and the continued success of our 
students.
                                 ______
                                 
    Mrs. Christensen. I now recognize myself for questions; and 
I will start with my colleague, Congressman Underwood.
    One of your last recommendations had to do with the 
military utilizing the University of Guam; and I was wondering, 
in the past, has the military ever approached the university 
for training or education purposes? Would this be a first?
    Mr. Underwood. Well, in the past--and we would have to go 
back a couple of decades--the University of Guam was a little 
bit more active in its extension services with the military. 
Currently, these services, educational services are bidded out 
on a region-wide contract that includes services to Japan, 
Okinawa and Korea.
    What happens is that the University of Guam would have to 
bid for that, instead of looking at the Guam piece separately. 
And of course there is another realistic stumbling block as 
well, and that is much of these activities are done through 
distance education, and the University of Guam hasn't perfected 
that in the same way that the University of Maryland and 
Central Texas have. But, in any event, what we need is we need 
to get our foot in the door.
    I have discussed this with General Bice, as well as others. 
And they are willing to listen, and I think they have a 
sympathetic ear on this particular issue.
    I tried to make the case that the Marines and military 
personnel on Guam should have access to, you know, local 
educational--they do have access, but they should have access 
to these services on base as well. And so we look forward to 
that partnership.
    Mrs. Christensen. Thank you.
    And what percentage of the professionals on Guam--the 
accountants, nurses, IT professionals and et cetera--are 
trained at the University of Guam? And are you prepared, if 
given the resources that you speak about, to increase that?
    Mr. Underwood. Well, you know, right now I would say--
without a lot of follow-up data, I would say that probably a 
third to 40 percent of the professionals on Guam who work in 
basic fields in education and nursing and business got their 
education from the University of Guam. The recent Chamber of 
Commerce asked how many had gone to school at the University of 
Guam, and I think about half of the hands went up in the room. 
So it is a pretty substantial amount.
    But, of course, we are talking about an increased number of 
professional positions, hundreds of new positions opening up. 
And we can't sustain--even if we existed at the current level, 
we would probably be preparing less than a third for the new 
positions that are coming up. So that is a source of problems 
for us.
    Because it is not just a problem for the University of 
Guam. I think it is for the entire kind of socioeconomic 
structure of the island. And that is if a fair amount--I don't 
know what that fair amount is--maybe half--of the existing 
professionals are from the island or from the region, then you 
help create the basis for, you know, good-paying positions and 
people who earn higher salaries than--and you sustain a kind of 
a professional class and a middle class for the next 
generation. And that is the basis upon which we think 
sustainable income, a sustainable economy will be based. So, 
you know--of course, in partnership with the Guam Department of 
Labor and the Guam Community College with whom we work very 
closely and work very well.
    But I think it is kind of like the part of the puzzle, the 
part of the economic puzzle that hasn't received adequate 
attention.
    Mrs. Christensen. Thanks. Thank you.
    Ms. Connelley, I don't know if Guam is like the Virgin 
Islands. In the Virgin Islands, a lot of our residents don't 
want to work in certain kinds of jobs. So my question to you 
is, are you satisfied that the available workforce on Guam is 
getting ready to take advantage of the opportunities that the 
pending military buildup will bring? And are there more things 
that we can be doing to assist besides finances?
    Ms. Connelley. I firmly believe that the people of Guam 
right now are, especially those unemployed. The unemployment 
rate on Guam is 8.3. So we are after those people who are at 
least--the last report was looking--there were about 5,000 
people looking for jobs at the time.
    But with the recent--what this military buildup is going to 
bring is that there will be more jobs for base operation 
support and there will be more jobs for the construction 
industry. With the very competitive salary and the benefits 
that the Federal service contract is now offering and with the 
latest salary prevailing wage rate that the U.S. citizenship 
and immigration is going to be issuing, I firmly believe that 
our local people will be attracted and our local people will be 
applying for these jobs and working for the private sector.
    Mrs. Christensen. Thank you.
    And, Ms. Okada, you mentioned that you are engaged in a 
number of collaborations with GAGPO and other government and 
business organizations. Are you satisfied with the 
collaborative efforts thus far and have they been helpful to 
you in your efforts to prepare Guam residents for the 
opportunities the buildup would bring?
    Ms. Okada. The collaboration we have had with several of 
the government agencies has helped us build the framework or 
foundation in moving this project forward. The data that we are 
lacking is to identify specifically which occupational areas 
and how many so that we can plan our growth based on those 
projections.
    Right now, because we don't have the projections available 
to us, we are just taking individual requests for certain types 
of training. So until we get specific numbers or a little bit 
more planning numbers as far as which occupational numbers that 
will give us time to prepare--because some of the curriculum 
that we need in some of the areas need to be developed and we 
need to get--we need some time to collect that information and 
move it forward.
    But, yes, the collaboration has been very beneficial for 
us, because at least it allows us to talk education at all 
levels instead of just focusing on either the vocational 
programs in the K-12 environment or postsecondary education.
    Mrs. Christensen. Thank you. Thank you.
    The Chair now recognizes Ms. Bordallo for her questions.
    Ms. Bordallo. Thank you, Madam Chairman. I have a general 
question which you touched on, but I would like to elaborate a 
little bit more.
    Dr. Underwood, you state a goal to partner with the U.S. 
military in Guam to establish professional development and 
educational courses. Can you elaborate on the nature of this 
arrangement and what the program would entail if it developed 
at the University of Guam? And are there other similar 
partnerships between universities and the Department of Defense 
for such professional development programs?
    Mr. Underwood. Well, initial discussions have been that, 
you know, a big part of the move to Guam is the headquarters of 
the third MEF. So that implies that there will be a lot of 
training opportunities. Because they all want their skills 
upgraded, and they will want the opportunity to do things that 
are degree oriented.
    We believe that this is an opportune time for the 
university to partner with the military to develop unique forms 
of curriculum for these kinds of programs. And they could be 
masters' level programs. They could be bachelor level programs. 
Where we are taking on the issues that are difficult, like how 
do you deal with communities that are undergoing rapid change? 
What is the responsibility of an officer corps in dealing with 
local communities? Just basic leadership training.
    We know that the military services have these kinds of 
unique contracts with selected universities. So those are the 
kinds of things that we think will be innovative and different 
that are both tailor made for the Guam experience but also uses 
the Guam experience to further train fit officers.
    I want to add that this is slightly outside--this is 
outside the scope of the basic educational services that Ms. 
Christensen asked me about earlier, and that is just the way 
that they bid those basic educational services now. We want to 
get our foot in the door. But I think that the fact that the 
headquarters unit is moving to Guam provides the university 
this opportunity.
    You know, universities are very flexible units. They can 
bring in people. They can create new forms of curriculum. They 
can be very responsive. So we look forward and we relish that 
opportunity, and I know that many of the people responsible and 
with the military buildup have mentioned this. We have even 
discussed the possibility of partnering even with one of the 
defense universities to provide this level of training or to do 
economic analysis of what is going to happen in Guam as a 
result of the military buildup. So we are constantly looking 
for those opportunities, and I think that General Bice and 
others are open to those possibilities. Of course, a little 
nudging from you will help a lot.
    Ms. Bordallo. So what you are saying, Dr. Underwood, is 
that there are similar partnerships between the military and 
universities?
    Mr. Underwood. Yes, that is correct.
    Ms. Bordallo. Finally, has the IGIA Guam Task Force looked 
into your proposals for establishing this partnership and 
developed any sort of way ahead for its implementation?
    Mr. Underwood. To my knowledge, no. But, of course, you 
know, that is partially dependent upon the university making 
its case as well; and we will do so. So we will continue to 
advance this concept and with IGIA and anyone else who will 
listen.
    Ms. Bordallo. Very good.
    Now, another point I have made quite an effort to get 
across in meeting with the IGIA, Department of the Interior is 
the fact that the MOUs are very important in this buildup. We 
are facing a very important election. In a couple of months 
there will be a new administration. We want to make sure that 
any of the agencies that you are dealing with as president of 
the community college, director of labor and the University of 
Guam, any of these agencies that you have been meeting with, it 
is important that, whatever they promise, that this is carried 
on. There is a continuation.
    So have any of you had any--I will start with you, Mary. 
Have you laid down any proposals between the Federal agencies 
and the community college and suggested, are you for the MOUs? 
Have you suggested this?
    Ms. Okada. We have had discussions about the MOU based on 
the last IGIA. However, there has been no documented MOU to my 
knowledge on either the Subcommittee on Education; and I don't 
believe there is any for labor, either. But we are continuing 
to have that discussion with them. Because they recognize the 
importance of continuing what efforts we have already started 
in collecting the data; and the people that are responsive 
right now from the Federal agencies, we have already 
established good working relationships with them and we are--it 
is important for us to be able to continue that dialogue with 
the appropriate members. But we are expanding as far as having 
greater dialogues.
    The Committee on Education is working a lot better now with 
the U.S. Department of Education. Initially, we were under HSS; 
and I believe they are working on or there is a proposal to 
reposition us.
    Ms. Bordallo. I would suggest that you be persistent. If 
you don't hear from them, you know, continue to. Because I 
think it is very important. I am just afraid that, you know, a 
few months down the road new Cabinet people will be appointed; 
and they may say, well, this wasn't during our watch.
    So, Mary, could you mention on behalf of the Department of 
Labor?
    Ms. Connelley. Yes, ma'am. Most of the people that we are 
working with, the 11 Federal agencies that we are working with 
either one way or the other, they have--for example, the 
Department of Labor, they are a grantor. So we really don't 
need an MOU because we get a formal grant from them.
    The Department of--the U.S. Department of Education is 
another member, and they provide funding to Guam in the insular 
areas, and we are working very closely with them. Because, 
again, they are also providing Federal funds under the Pacific 
Islands Grant.
    Ms. Bordallo. Very good.
    Dr. Underwood.
    Mr. Underwood. With those agencies that we have specific 
grants from, of course we have good relationships and we have 
had a number of discussions. But to, I think, your point on the 
MOUs, it is absolutely critical, because this provides the 
framework for a relationship more so than just the framework 
for a particular grant. And that relationship is absolutely 
key, especially for an institution like the University of Guam, 
which is somewhat unique.
    And so, you know, if we are--for example, if we are trying 
to create balance between training opportunities for people in 
the trades and professions and--trades and people in the 
professions, that kind of MOU would go a great way toward 
establishing a framework through which future granting 
opportunities, future technical assistance opportunities are 
provided. And so the MOU is absolutely critical; and I think 
that we should work a little bit harder, I mean, you know, on 
our end.
    I think, you know, there was a little bit of a 
misunderstanding of the direction that you wanted to take in 
the MOU. I think people are now seeing the very important 
wisdom of that, because it is going to provide the framework 
for those future opportunities, and it is going to help resolve 
transition issues into the next administration. Because those 
transition issues, as those of us with a few years of political 
experience on this--weeks, months go by and nothing happens and 
there is no framework. But if you have the framework in 
existence, even the existing bureaucracy, the wheels will 
continue to turn, and there won't be lost opportunities. So I 
think it is very important.
    Ms. Bordallo. I thank you, Dr. Underwood. And I certainly 
agree with you.
    I wish--I would like to tell the three witnesses that we do 
have a memorandum of understanding between MARAD and the port. 
So I feel comfortable in that. But for the rest of the 
agencies, GovGuam agencies that are involved in this military 
buildup, I think it is very important that we try to develop 
something very near in the future.
    Madam Chair, I have a very important hearing to attend, an 
Armed Services meeting; and it has to do with the defense 
authorization bill. Guam has many provisions for the military 
buildup in it, and I want to make sure that those provisions 
are still there. So if you would excuse me for the second 
panel. But I will have staff here.
    Mrs. Christensen. Certainly. It is very hard. What we will 
do is, in the interest of time and some of the schedules have 
been changing throughout the day, so I am going to excuse--
thank the panel for their testimony and for their answers to 
the questions. We probably have more questions for you which we 
will submit in writing, and we would ask that you respond in 
writing to those questions.
    I would now like to call up the second panel, Major General 
David Bice, the Executive Director of the Joint Guam Program 
Office, and the Honorable Douglas Domenech, Acting Deputy 
Assistant Secretary for Insular Affairs of the Department of 
the Interior.
    Ms. Christensen. As soon as you are ready, Major General 
Bice, you may start your testimony.

   STATEMENT OF MAJOR GENERAL DAVID F. BICE (USMC RETIRED), 
         EXECUTIVE DIRECTOR, JOINT GUAM PROGRAM OFFICE

    General Bice. Madam Chair, Congresswoman Bordallo, thank 
you very much. I am pleased to appear before you today on 
behalf of the Joint Guam Program to share information on 
existing potential labor solutions for the Guam military 
buildup.
    To meet a total civilian and military construction effort 
of approximately $2-1/2 billion per year, we estimate between 
6,000 to 20,000 off-island workers will be needed on Guam. 
These workers will require temporary accommodations. The 
Department of Defense is currently estimating the cost for 
providing temporary housing for the H visa portion of the 
workforce supporting the military construction effort. We plan 
to include these costs for these services in each U.S. military 
construction appropriation and Government of Japan direct cash 
contribution project.
    One of the approaches being considered for temporary 
construction workforce housing and logistics support is to 
place the responsibility for such support on the individual 
construction contractors. For such an approach to work, the 
Department would partner with the appropriate Federal and Guam 
agencies to monitor a compliance with underlying worker health, 
safety, security and labor laws and regulations and underlying 
contract terms implementing such laws and regulations.
    Medical and health care support for the temporary workforce 
is also under study. The Department is aware of the challenges 
facing Guam's medical and health care community, and we do not 
want to add to that situation. Although temporary construction 
labor may fulfill the bow wave of construction needs, the 
cumulative goal for the Federal and Guam officials, as you 
heard, is to create long-term career opportunities for the 
populous in the region.
    With the training initiatives being implemented by the U.S. 
and Guam Departments of Labor, I am confident that skill levels 
and earnings potential will rise. A cooperative spirit has been 
displayed by relevant Federal and Guam agencies, and we have 
established momentum required to achieve success. This 
realignment of forces is good for Guam and the surrounding 
islands, good for the region and certainly good for the nation.
    Thank you for this opportunity to discuss the labor issues 
associated with the realignment of forces in Guam, and I thank 
you for your continued support to this initiative, and I look 
forward to your questions. Thank you.
    Mrs. Christensen. Thank you, Major General Bice.
    [The prepared statement of General Bice follows:]

            Statement of David F. Bice, Executive Director, 
                       Joint Guam Program Office

    Chairwoman Christensen and members of the Subcommittee, thank you 
for the opportunity to testify on the labor solutions for Guam military 
build-up requirements. As the Executive Director for the Joint Guam 
Program Office (JGPO), I am responsible for the planning and 
integration of the Department of Defense (DoD) infrastructure 
capabilities, master plan development, program and budget 
synchronization, construction oversight, government and business 
coordination, and strategic communications for the realignment of 
military forces to Guam.
BACKGROUND
    As mentioned in my last testimony to the Subcommittee, the proposed 
military build-up on Guam is a key component of the United States 
Alliance Transformation and Realignment Agreement (ATARA) with the 
Government of Japan (GOJ). As part of this realignment, the U.S. seeks 
to increase the flexibility to contend with uncertainty; strengthen 
allied roles; build new partnerships; create the capacity to act both 
within and across regions; develop rapidly deployable capabilities, and 
focus on effective military capabilities
    To accomplish the military and political objectives of the ATARA 
and military realignment to Guam, both the Department of Defense and 
the Department of Labor (DOL) recognize that large numbers of temporary 
construction workers will be needed for the military and civil, 
construction projects that are to occur between now and 2014. As 
documented by the DOL, Guam's current workforce has an insufficient 
supply of labor to meet the demands of this temporary surge in 
construction activity.
    A major enabler in securing the necessary temporary construction 
workers needed for the Guam military build-up was the passage of the 
Consolidated Natural Resources Act of 2008, Pub. L. 110-229. This Act, 
which contains provisions changing the immigration laws of the 
Commonwealth of the Northern Marianas Islands (CNMI), waives the cap on 
H visas, including the H2B visa used by skilled construction workers, 
for Guam and CNMI. This waiver becomes effective with the start of the 
transition period, which begins in the first full month, one year after 
the passage of the act, or June 1, 2009, and extends through December 
31, 2014. An extension of the transition period beyond December 31, 
2014 and the associated H visa waiver cap is possible, but only for 
CNMI. Once construction efforts commence in Guam in early 2010, DoD and 
JGPO will be in a better position to determine if statutory or 
regulatory relief is required.
    We are grateful to Congress for this visa waiver provision, but may 
need to extend the waiver beyond 2014 should program timelines 
necessitate.
LABOR ESTIMATES
    The Department of Defense recently provided a report to Congress 
detailing the status of the Guam Joint Military Master Plan. DoD 
estimates there are approximately 5,600 construction workers currently 
available in Guam today. Naval Facilities Engineering Command (NAVFAC), 
the Department's construction execution agent on Guam, estimates 
between 5,000 and 10,000 construction workers are needed to execute 
approximately $1B of construction work in place (WIP) per year. NAVFAC 
also estimates that between 12,000 and 25,000 construction workers 
would be required to execute $2.5B of WIP annually on Guam. Therefore, 
an estimated 6,000 to 20,000 off-island workers will be required to 
reach the necessary work force strength. The NAVFAC study estimated 
that approximately 6,000 workers are expected to migrate to Guam from 
the continental United States or Hawaii to support the construction 
effort. The remainder would come from either the Commonwealth of the 
Northern Mariana Islands, Freely Associated States, or from other 
foreign locations as non-immigrant construction workers requiring H2B 
visas. Through the State Department and Department of Interior, we have 
been working to establish a network of available workers in the Pacific 
Territories and States. This database will be provided to industry via 
the DOL websites and the industry forums.
LOGISTICS FOR LABOR INFLUX
    The significant increase in construction workforce on Guam will 
require a temporary increase in accommodations. The development and 
ultimate decision regarding the appropriate solution or solutions for 
workforce housing and logistics is ongoing, and part of overall program 
planning being conducted with industry and the Government of Guam 
(GovGuam) stakeholders. Some key factors driving development of 
potential solutions include costs, durability, post-construction 
(secondary) use of facilities; risk to government and contractors, and 
post construction benefits and impacts. DoD is currently estimating the 
approximate cost for providing temporary construction workforce 
housing. Costs to provide these services will be funded respectively in 
each U.S. MILCON appropriations and GoJ Direct Cash Contribution 
projects.
    One of the approaches being considered for temporary construction 
workforce housing/logistical support is to place the responsibility for 
such support on the individual construction contractors. The Department 
is still evaluating the strengths and weaknesses of this approach from 
both a contracts management and a community benefit perspective. The 
Department understands that for such an approach to work, the contract 
documents, the source selection process, and contract administration 
would have to ensure management of large numbers of temporary 
construction workers. Additionally, for such an approach to work the 
Department would partner with the appropriate Federal and GovGuam 
agencies to monitor compliance with applicable worker health, safety, 
security and labor laws and regulations, and the contract terms 
implementing such laws and regulations.
    Other options considered for adequate workforce housing include:
    <bullet>  DoD funded workforce housing on DoD property under MILCON 
authority, with post-construction (permanent) use for barracks, 
training facilities, etc.
    <bullet>  DoD funded temporary workforce housing on DoD property as 
an overhead cost on large construction contracts. This concept involves 
industry building durable temporary facilities as required, and 
dismantling worker accommodations after the project is complete.
    <bullet>  Privately funded construction and operation of worker 
housing on GovGuam property that can subsequently be adopted for public 
use (affordable housing). This concept includes partnerships with 
GovGuam and private industry to create public/private ventures.
    <bullet>  Establishment of logistics contracts to provide durable 
temporary worker housing as part of an overall logistics contract that 
includes housing, medical, transportation and other services.
    No matter what solution or solutions are implemented to address 
temporary construction workforce logistics, the Department will partner 
with appropriate Federal and Guam authorities to ensure the safety and 
security of all temporary construction workforce personnel.
    The Department will include enforcement by proper authorities of 
appropriate standards to ensure the safety and security of all 
transient workers in housing complexes including:
    <bullet>  Safe and secure living conditions for transient personnel
    <bullet>  A standard-of-living commensurate with U.S. & Guam 
housing standards
    <bullet>  Suitable physical security and accommodation of cultural 
diversity
    Medical and healthcare support for the temporary workforce is also 
under study. The Department is aware of the challenges facing the Guam 
medical and healthcare community, and we are looking for ways to 
mitigate and perhaps even improve the situation for all concerned.
TRAINING PROGRAMS
    Through the Interagency Task Force meetings co-chaired by JGPO and 
the Department of Interior Office of Insular Affairs, the Department of 
Labor has been making progress in helping the Guam Department of Labor 
prepare the Guam workforce for the opportunities this strategic 
realignment brings. The Guam Department of Labor is focused on 
preparing the local citizens to meet the long-term career oriented job 
opportunities that this strategic initiative offers. These 
opportunities include the construction trades and the full range of 
professional and service skills typically found in our highly technical 
and skilled defense related businesses. DoD endorses this approach and 
is aware that the construction program will expand and contract and a 
stable, skilled workforce will be needed by the DoD activities on Guam 
and accompanying defense industry.
    Even as we set a completion target for the construction activities 
surrounding the Marine relocation, we expect the demand for skilled 
construction workers on Guam, on-base and off, to be significantly 
higher than it is today. At the local level, the Guam Community College 
has expanded their Construction Trade Program to include a diesel 
mechanical course and construction boot camp. It is clear that the 
educational institutions on Guam understand the new demand for a full-
fledged labor training and development program and are expanding as 
industry needs become more apparent.
    Beyond Guam, we do know that we will also be relying on the outer 
islands to partake in job opportunities. The Guam Contractor's 
Association's Trades Academy, which was officially established in 2006, 
is also stepping up to the plate to assist in filling the island need 
for skilled labor. The Trades Academy has increased classes within 
their four year program that already includes heavy equipment, safety, 
carpentry, heating/ventilation/air conditioning and electrical trade's 
skills.
    The Trades Academy guarantees job placement to all students, even 
prior to graduation and has placed students with 45 companies. The 
academy also offers credentialed construction skills to under-employed 
workers. This is important, given the strong desire by DoD, Guam, and 
the insular islands to develop a talent pool that fills enduring job 
vacancies that will sustain a healthy economy well beyond the 
completion of the strategic realignment.
    Temporary foreign labor is not the ultimate focus of the Program's 
labor effort. Although temporary construction labor may fulfill the bow 
wave of construction needs, the cumulative goal for Federal and Guam 
officials is to create long-term career opportunities for the populace 
in the region; the kind of job opportunities that raise skill levels 
and earning potential.
    Recent actions by the U.S. Citizenship and Immigration Service 
(USCIS) to raise wage rates for H2B construction workers on Guam will 
ultimately benefit Guam as a whole as the economic standard of living 
rises for all those in the construction trades. We are confident that 
the studies and analysis conducted by USCIS accurately reflect the 
economic environment and will bring stabilization to long term labor 
costs associated with Guam military buildup construction contracts.
CONCLUSION
    This strategic realignment on Guam requires a coordinated effort 
among all Federal and Guam agencies. Collectively we have made great 
strides in moving in the right direction to solve the many issues we 
face. Continued coordinated planning to address temporary construction 
workforce housing and logistics issues and enduring-job training 
initiatives require participation from various entities to ensure 
success. Based upon the cooperative spirit that has been displayed to 
date by the relevant Federal and Guam agencies, I am confident that we 
have established the momentum required to achieve success within the 
desired timeline. I encourage us all to continue to move forward in our 
common goal of promoting security in the region.
    Thank you for this important opportunity to discuss the labor 
issues associated with the realignment of forces on Guam. I also thank 
you for your continued support and dedication.
                                 ______
                                 
    Mrs. Christensen. The Chair now recognizes Mr. Domenech for 
his testimony.

 STATEMENT OF THE HONORABLE DOUGLAS W. DOMENECH, ACTING DEPUTY 
  ASSISTANT SECRETARY FOR INSULAR AFFAIRS, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Domenech. Thank you, Chairwoman Christensen and Madam 
Bordallo. It is good to see both of you again. And Secretary 
Kempthorne sends his greeting, as usual.
    Madam Chair and members of the Subcommittee, thank you for 
the opportunity to testify on identifying labor solutions for 
the Guam military buildup.
    As you know, under the proposed Guam military buildup, 
approximately 8,000 U.S. Marines and 9,000 dependents will be 
shifted from Okinawa, Japan, to Guam. It is anticipated that 
Guam employment will benefit in two ways: first, through the 
initial construction-related jobs and, second, through 
permanent new defense and nondefense jobs to support the new 
military mission.
    The more immediate concern, as you know, however, is 
finding labor for the construction phase of the buildup between 
2010 and 2014. It is estimated that perhaps up to 15,000 people 
will be needed for constructing military facilities and another 
5,000 to 7,000 for construction in the civilian areas of Guam. 
Labor from outside Guam will likely have to be imported.
    Contemplating the challenges ahead, it was decided that the 
IGIA should establish a Guam Task Force to coordinate the 
military buildup issues across all the Federal agencies. The 
task force has established five working groups. One of them is 
specifically on labor, and that group has been very active.
    As you know, the Department of Labor issues regional 
innovation grants--they were discussed earlier--the RIG grants 
for regional labor planning. The IGIA has encouraged Guam to 
apply for such assistance, which they have. The Guam region in 
this case--for the purposes of the application, the Guam region 
would include, of course, Guam, CNMI, the Marshall Islands, 
Micronesia and Palau. When completed, the plan would define the 
existing regional workforce supply and skill levels, the kind 
of raw data that we need and identify any gaps that would 
affect the present and future economy of the region. The plan 
would also set out strategies to address those identified 
needs. So we are very anxious to have the results of that.
    Up to this point, Interior funding has been aimed at 
expediting this planning process. In March, the Office of 
Insular Affairs provided Guam a technical assistance grant to 
aid in the writing of the Guam grant application to the 
Department of Labor for the regional plan. OIA and Labor 
believe that a solution to Guam's workforce issues can only be 
realized through this regional collaboration. So that is the 
aim of the plan.
    Within the IGIA's Labor Group, discussions of the labor 
supply have centered on two main issues, the availability of 
United States-eligible labor and the availability of foreign 
labor. The massive scale of the Guam military buildup makes the 
importation of foreign labor inevitable. For this reason, 
Congress included a provision lifting the cap on H visa workers 
in Guam. Because there is a large supply of labor in nearby 
countries, the labor needs of this immense project should be 
met.
    Discussion and effort now revolve around the United States-
eligible labor and how to attract such workers to Guam. The 
United States-eligible workers, of course, include persons who 
are U.S. citizens, United States permanent residents and freely 
associated state citizens from the Marshall Islands, Micronesia 
and Palau.
    The United States-eligible labor and available labor takes 
precedence over foreign labor for jobs that will become 
available on Guam. Therefore. We are pursuing a mechanism that 
requires that employers first advertise the job regionally. 
Then only if no qualified U.S.-eligible applicant applies can 
the employer apply for a United States visa for a foreign 
worker to work on Guam.
    Mr. Domenech. While the labor needs are daunting, we 
believe that looking to the U.S.-eligible labor first will be a 
significant part of the solution. The labor group is discussing 
possibilities for outreach to persons living in the 50 States, 
as well through the Internet and notices postings to unions and 
employers and military for returning veterans.
    OIA has specific concern for the United States-eligible 
labor in the territories of Guam, CNMI, FSM, the Marshall 
Islands, and Palau. Word, of course, is already out in these 
jurisdictions that there will be jobs in Guam. The challenge is 
to connect that labor on these other islands with other 
employers in Guam.
    Interior is exploring the establishment of a job match 
system to connect potential workers with employers in Guam. In 
the Freely Associated States, workers may need further 
instruction in English and math, as well as the cultural 
differences that they may experience in Guam. In addition, 
resumes or job applications need to be developed. 
Transportation to and housing in Guam may need to be arranged 
as well.
    Apprenticeship programs like the ones that have been 
discussed earlier are a key factor in this as well. In these 
efforts, the Department of the Interior will be seeking to help 
the Freely Associated States eliminate difficulties in getting 
their workers from their home island to jobs in Guam.
    In addition, we have a concern, final concern, that the 
workers who are from off-island locations receive comparable 
wages and benefits; and we are actively working through both 
the IGIA process and with other Federal agencies to raise 
awareness on that issue.
    Thank you very much.
    Mrs. Christensen. Thank you, Deputy Assistant Secretary.
    [The prepared statement of Mr. Domenech follows:]

 Statement of Douglas Domenech, Acting Deputy Assistant Secretary for 
            Insular Affairs, U.S. Department of the Interior

    Madam Chair and members of the Subcommittee on Insular Affairs, 
thank you for the opportunity to testify on the identification of labor 
solutions for the Guam military build-up.
LABOR NEEDS
    Under the proposed Guam military build-up, approximately 8,000 
United States Marines and 9,000 dependents will be shifted from 
Okinawa, Japan to Guam. Construction of new defense facilities to 
accommodate this influx of personnel is scheduled to start in 2010, 
with the relocation to be completed in 2014. The cost of new 
infrastructure to be installed could exceed $10 billion.
    Guam employment will benefit from the build-up in two stages: (1) 
initial facility building and improvements will create a large number 
of high-paying construction-related jobs for several years and (2) 
permanent new defense and non-defense jobs to support the new military 
mission.
    Federal civilian payroll in Guam at the end of 2007 numbered 3,610, 
of which 3,040 or 84.2 percent were civilian DOD employees. Non-DOD 
Federal employees were 570 or 15.8 percent of the total. There is 
roughly one civilian employee for every two active duty persons on 
Guam. Assuming an addition of about 8,300 Marines and 4,510 active duty 
personnel in other military services when the build-up is completed, 
the number of active duty personnel would increase from 6,520 today to 
19,330 in 2014. Current estimates of new civilian jobs on Guam 
resulting from the build-up are as many as 6,000. Given today's total 
payroll employment figure of just over 60,000, this would be a 10 
percent increase overall in civilian employment after 2014.
    Our more immediate concern, however, is finding labor for the 
construction phase of the build-up--2010 to 2014. Labor of all skill 
levels will need to be secured. It is estimated that 15,000 persons 
will be needed for constructing military facilities, and another 5,000 
to 7,000 for construction in the civilian areas of Guam. The current 
local work force on Guam will not be able to satisfy all of these labor 
needs. As a result, some labor from outside of Guam will have to be 
imported.
IGIA AND INTERIOR EFFORTS
    Contemplating the challenges ahead, it was decided that the 
Interagency Group on Insular Areas (IGIA) would establish a Guam Task 
Force to coordinate military build-up issues that cross jurisdictional 
lines of Federal agencies. Interior and Joint Guam Program Office 
(JGPO) are leading the Task Force effort. The Task Force has 
established five working groups: Labor, Infrastructure, Environment, 
Health and Human Services, and Socio-Economic. The Labor Group has been 
playing a prominent role.
U.S. Department of Labor Regional Innovation Grant (RIG) Program
    The Department of Labor issues Regional Innovation Grants (RIG) for 
regional labor planning. Members of the IGIA have encouraged Guam to 
apply for such assistance for use in developing a plan that would 
anticipate labor demand and supply for the Guam region. The Guam region 
would include Guam, the Commonwealth of the Northern Mariana Islands 
(CNMI), the Republic of the Marshall Islands, the Federated States of 
Micronesia, and the Republic of Palau. Both U.S. DOL and OIA have 
collaborated with Guam on the submission of a RIG application. When 
completed, the plan will define the existing regional workforce supply 
and skill levels, and identify any gaps that could affect the present 
and future economy of the region. The plan will also set out strategies 
to address those identified needs.
    Up to this point, Interior funding has been aimed at expediting 
this planning process. In March 2008, the Office of Insular Affairs 
provided Guam a technical assistance grant of $15,000 to aid the 
writing of the Guam grant application for U.S. Department of Labor 
funds to develop a regional labor plan. IGIA continues to work closely 
with U.S. DOL as a regional labor plan is developed.
    It should noted that both OIA and Labor believe a complete solution 
to Guam's workforce issues can only be realized through regional 
collaboration. Regionalism makes sense here for several reasons, chief 
among them is the synergy generated by more compact economic 
development patterns.
Foreign Labor
    Within the IGIA's Labor Group, discussions of the labor supply have 
centered on two main issues, availability of United States-eligible 
labor and availability of foreign labor. Those who have looked at the 
issue closely agree that the massive scale of the Guam military build-
up makes the importation of foreign labor inevitable. For this reason, 
Public Law 110-229 included a provision lifting the cap on H visa 
workers in Guam (and the CNMI) for a period of five years ending in 
2014. Because there is a nearly inexhaustible supply of labor in nearby 
Asian countries, the labor needs of this immense project can be met.
United States-Eligible Labor
    Discussion and effort now revolve around United States-eligible 
labor and how to attract such workers to Guam. United States-eligible 
labor includes persons who are United States citizens, United States 
permanent residents, and freely associated state citizens. By agreement 
in compacts of free association, citizens of the Republic of the 
Marshall Islands, the Federated States of Micronesia, and the Republic 
of Palau are eligible to live and work in the United States and its 
territories. These three island countries are in relatively close 
proximity to Guam. Residents of Guam, of course, and residents of the 
adjacent CNMI who are United States citizens are also eligible to work 
in Guam.
    United States-eligible and available labor takes precedence over 
foreign labor for jobs that will become available on Guam. A helpful 
approach will be to pursue a mechanism that requires that employers 
will first advertise a job regionally. Then, only if there is no 
qualified, United States-eligible applicant, can that employer apply 
for a United States visa for a foreign worker to work on Guam. While 
the labor needs are daunting, we believe that looking to the United 
States first will be a significant part of the solution.
Outreach
    Part of the problem in attracting United States citizen workers 
will be both distance and lack of knowledge of the opportunities that 
will be available on Guam. The Labor Group is discussing possibilities 
for outreach to persons living in the fifty states by utilizing 
internet sites and notices for posting by unions and employers and the 
military for returning veterans.
    The Office in Insular Affairs has specific concern for United 
States-eligible labor in territories of Guam, and the CNMI, and the 
freely associated states of the Republic of the Marshall Islands, the 
Federated States of Micronesia, and the Republic of Palau. Word is 
already out in these jurisdictions that there will be jobs in Guam.
    The challenge is to connect the labor in these other island areas 
with the employers in Guam. The Department of the Interior is exploring 
the establishment of a hands-on job match system--or ``regional labor 
exchange''--to enable the matching of potential workers with employers 
in Guam. In the freely associated states, many persons may need further 
instruction in English and math, and the cultural differences that they 
will experience in Guam. Resumes will need to be developed in advance, 
so that the job applicant will be ready when the job is announced. 
Transportation to Guam and housing in Guam will need to be arranged. 
Apprenticeship programs on Guam will be another opportunity available 
to persons from Guam and the surrounding islands. These programs will 
teach more specialized skills. In these efforts, the Department of the 
Interior will be seeking to eliminate difficulties in getting 
individual workers from their home islands to jobs and job programs in 
Guam.
    One concern we have is that workers, both United States-eligible 
labor and foreign, will receive comparable wages and benefits. We are 
actively working, both through the IGIA process and with other Federal 
agencies, to raise awareness of these issues.
                                 ______
                                 
    Mrs. Christensen. The Chair now recognizes Ms. Bordallo for 
questions.
    Ms. Bordallo. Thank you. Thank you very much for the 
opportunity to ask the questions first.
    And thank you very much, Secretary Domenech.
    General Bice, I have a few questions. I am a proponent for 
training programs for local workers on Guam. Training programs, 
as Ms. Connelley notes in her testimony, are critical in 
ensuring our local workforce has the skills needed to assist in 
this buildup.
    Now, to that extent, what is the Joint Guam Program Office, 
in conjunction with NAVFAC, doing to ensure that local labor 
forces will be utilized first before outside workers are 
sought? And are local hiring requirements going to be built 
into contracts released by NAVFAC?
    General Bice. Thank you, Congresswoman Bordallo, for the 
question.
    Two elements to your question: One is the H Visa process. 
As I understand it, before an H Visa is granted, there is 
assertion that there is no local, able, willing, and capable 
worker ready to fulfill that job; so every job fulfilled by an 
H-2B Visa applicant, that there is a process we go through, and 
the Guam Department of Labor goes through to determine that 
there is no one locally available to fulfill that job. That is 
the first thing.
    The second thing is that from all the businesses that I 
have been in touch with, and in our own situation for the Joint 
Guam Program Office, we would rather hire locally first because 
that is where expertise is.
    So we are looking for local labor talent first. I know that 
the businesses are doing the same. They want to hire the local 
businesses and local labor to fulfill their requirements. I 
think that will continue.
    The question you had on the contracts. Currently, with 
small businesses, especially in Guam, 40 percent of all 
contracts awarded by NAVFAC-Marianas are awarded to small 
businesses in Guam. That is a significant number of contracts 
to go to local communities there.
    So the fact that current contributing awards to small 
businesses in Guam, as well as the labor hiring practices, just 
from all practicality, the businesses will be looking for local 
talent first before they go off island.
    Ms. Bordallo. What you are saying is that the local hiring 
requirements are being built into the contracts; is that 
correct?
    General Bice. That is correct.
    Ms. Bordallo. Very good.
    My second question here to you, General, you stated in your 
testimony one of the approaches being considered for temporary 
construction workforce housing and logistical support is to 
place the responsibility for such support on the individual 
construction contractors.
    You further state that the Department is investigating 
other methods to solve questions about workforce housing for 
temporary construction workers.
    I am concerned that placing the responsibility of workforce 
housing on individual contractors ducks the Federal 
Government's role in oversight of the well-being of individuals 
supporting their projects.
    Now, we have seen this acquisition strategy in Iraq and 
Afghanistan fail time after time. When can we expect a final 
decision on how the Department will solve the issue of 
workforce housing? Moreover, if the Department decides upon a 
unified housing strategy, where could we expect to see funding 
for this initiative come from?
    General Bice. Thank you for that question.
    This is one of our most important areas when it comes to 
our workforce, ensuring that particularly the H-2B Visa 
workers--to assure that they are housed in a safe, secure 
manner that meets all of our requirements.
    Currently, there is a process in Guam today that assures 
that process. I have had my staff go out with the local 
Department of Labor inspectors as they go out there and inspect 
the facilities in which the workers, temporary workers, H-2B 
workers are living; and we are satisfied that that is a good 
process. We are going to incorporate that process into our 
contract.
    So we will judge the capability of the contractor and that 
contractor's ability for future contracts based upon their 
compliance with meeting these requirements, that is, ensuring 
that the workers are housed safe and secure, that they are 
taken care of, and all matters of standards are being met. We 
will rely on the Department of Labor to provide us those 
reports.
    We will also go out and spot check to make sure those 
standards are upheld.
    Ms. Bordallo. Would we need funding for this initiative?
    General Bice. As I stated, that will be worked into the 
construction cost for each project. We will work that in, and 
that will be an overhead cost that will be worked into each 
project that we will ask an appropriation for.
    Ms. Bordallo. There is one other question, General Bice, 
and this concerns me a great deal because I sit as Chair of the 
Health Committee on the KPAC Caucus.
    There is a concern on Guam that health facilities are 
already strained. How can you address health care issues for 
guest workers, and is it possible to require contractors to 
provide health insurance through Guam providers to ensure that 
these health needs are addressed?
    General Bice. Currently, we are studying that issue at this 
point. Yes, we are going to require contractors to provide 
health care to their workforce. They certainly will do it for 
the local job sites, first aid clinics and the like there.
    What we are looking for is the third level of care. This is 
care that would require outpatient clinics. So for x-rays or 
blood work or lab work we are evaluating to see what solution 
can be provided. Even today in Guam I have a team that is going 
around and looking at potential clinics to see how we can use 
those capabilities that you already have in Guam and, again, 
put that into our contract overhead to provide that funding.
    We are also looking at the naval hospital to see if there 
is a potential solution there. We have examples around the 
world where we use the existing naval hospital to provide some 
level of care to workforce. It is not the ideal solution in 
Guam, but it is certainly an option to be considered.
    We expect to have an answer in the not-too-distant future 
on which option we are going to choose there.
    Ms. Bordallo. Well, what I am thinking here is, say a large 
corporation comes in, wins a bid for contracting, and they 
probably have their own insurance from their companies abroad. 
What I am concerned about is, would they provide health 
insurance through Guam providers?
    General Bice. Are you talking about Guam insurance 
companies?
    Ms. Bordallo. That is correct.
    General Bice. I don't know what they would be providing 
there, but I do know that we would require them to provide 
health care and/or health care insurance. Our concern is Guam 
Memorial Hospital and the capacity of Guam Memorial on taking 
on additional patient load. In all the briefings that I have 
seen and heard from Guam Memorial, they are at max, if not over 
capacity, in patient load. So what we are trying to find are 
solutions to not exacerbate that problem that they have at Guam 
Memorial.
    So we are hooking at private clinics on Guam to see if 
there are solution sets there and whether, through insurance or 
direct cash payments, that medical care can be provided.
    Ms. Bordallo. Could we perhaps include providing health 
insurance through Guam providers as a preference?
    General Bice. Could I take that question and get back to 
you on that?
    Ms. Bordallo. Yes. All right.
    General Bice. Thank you.
    Ms. Bordallo. Thank you.
    I yield back my time, Madam Chair.
    Mrs. Christensen. Thank you, Ms. Bordallo. You didn't leave 
me many questions to ask, but I am going to start with this.
    Let me start with Deputy Assistant Secretary Domenech. We 
appreciate hearing that the members of the IGIA encouraged Guam 
to apply for Regional Innovation Grants to develop a plan that 
would anticipate labor demand and supply for the Guam region, 
and that they have actually applied for some of those grants.
    Since the Guam region encompasses CNMI, FSM, as well as the 
Republic of Palau, were those respective governments also 
consulted to get their input on the plan and how it would 
benefit them and their residents?
    Mr. Domenech. My understanding of how the grant process 
works for the RIG grant is that that consultation is actually 
part of the development of the plan. So my understanding--and 
we even had an update as we walked in here to the room--is that 
Guam has applied for that initial funding from the Department 
of Labor; and with initial thumbs up from them--and I think 
they analyze it for a month or so--hopefully, they will get the 
bigger grant that will develop the regional plan. That is when 
the consultation happens.
    Mrs. Christensen. OK. Thank you.
    You mentioned also that there were a number of challenges 
in connecting the labor in these other islands with the 
employers in Guam. In this regard, what efforts might the 
Department or had the office been taking to eliminate some of 
the difficulties in getting the individual worker from their 
home island to jobs and job programs on Guam?
    Mr. Domenech. That plan is essentially still in 
development, but what we envision is using our representatives 
out in all those islands to create the kind of database 
connection with each of the local islands to connect to their 
community college system and university system to facilitate, 
essentially, that kind of connection.
    Mrs. Christensen. Thank you.
    I guess this could be both of you, and it sort of repeats a 
question that Congresswoman Bordallo asked, but we just want to 
be very clear on it because last year both DOD and DOI 
testified before the Subcommittee that Guam's labor pool would 
not be sufficient; and we passed legislation placing Guam 
outside of the H-2B caps.
    Throughout the legislative process we have always been 
assured that Guam residents would be looked to first, and then 
the U.S. Mainland and the Pacific region, prior to exercising 
the authority Congress has authorized with respect to the H-2B 
Visa.
    So my question is just to reiterate: Can both of you 
reiterate your support here today to employ residents from 
Guam, the region, and the U.S. mainland, before seeking H-2B 
visas?
    General Bice. Yes, ma'am. The application for the H Visa 
requires the local department of labor to certify that there is 
no worker on Guam that is ready, willing, and able to perform 
that task. We will follow that process.
    Mrs. Christensen. But after you certify that there is no 
one on Guam, the U.S. mainland, and the region would also come 
before you and seek an H-2B Visa employee?
    That is also the assurance that we want to have.
    General Bice. Certainly, that the employers will look for--
if they are on Hawaii or the mainland, they will be looking to 
see and making advertisements available there. But right now 
there are 1,700 H-2B Visa workers on Guam today, so the process 
is working to look at Guam first before they go to elsewhere to 
look for an H-2B applicant.
    Mr. Domenech. That would be our position as well. We 
completely support the way you have described it here, Guam 
labor first.
    Mrs. Christensen. The U.S., the region first, U.S. 
citizens, nationals?
    Mr. Domenech. U.S.-eligible labor first.
    Mrs. Christensen. OK. Thank you.
    General Bice, a recently updated GAO report, at least last 
week, continues its observation that the local infrastructure 
is inadequate to meet the demand required for the buildup, and 
that Guam officials remain concerned that the number of workers 
needed will strain their services, such as emergency care 
medical facilities, housing, and transportation.
    In response to Congresswoman Bordallo, you addressed some 
of the medical facility issues. Your testimony now reflects 
temporary workers in the range of 25,000. That is in addition, 
I think, to the number that the GAO may have looked at.
    So how is the Federal Government responding to these 
concerns raised by both the GAO and Guam? What role do you 
expect the local government to play in responding to these new 
worker numbers and the GAO concerns?
    General Bice. Thank you, Madam Chair, for that question.
    We will continue to coordinate with the Government of Guam, 
especially the department of labor, as we look at these 
requirements. Certainly, we can establish in our contracting 
provisions that if there is additional need for workers, that 
we ask the contractors to bring them in from off-island.
    We know that Guam medical services especially are under 
strain for shortages of nurses and doctors, and we do not want 
to take away from Guam Memorial Hospital to staff nurses in a 
clinic that we establish there. We will consult with the 
Government of Guam, and if need be, we will require the 
contractor to bring those medical care workers from off-island.
    Mrs. Christensen. And housing?
    General Bice. We will get the housing for the temporary 
workers as we described. We will be monitoring that, especially 
for the H-2B Visa workers, and that--we anticipate that we are 
going to have to have the construction contractors to build 
housing to accommodate those workers.
    Mrs. Christensen. Thank you. I have no further questions.
    I will recognize Ms. Bordallo if she has any questions.
    Ms. Bordallo. Thank you, Madam Chairman. Just to sum up. I 
found out I do not have to attend that Armed Services. I guess 
we got everything through.
    Secretary Domenech, we have emphasized earlier the need for 
MOUs as a roadmap for the incoming administration. Is it a 
priority of the IGIA to assist in this process, and is the MOU 
between MARAD and the Port of Guam a good example for other 
Federal agencies?
    Mr. Domenech. It certainly could be.
    I am not aware of any resistance to your idea of doing the 
MOUs. I would, in fact, like to work with your staff to see if 
we can't begin the process of detailing exactly how that would 
be. I think the Secretary would be very supportive of your idea 
of creating some kind of bridge to the next administration that 
lays out commitments as much as we can commit to a pathway to 
help Guam.
    Ms. Bordallo. Yes. There is always the situation where 
someone new coming in, it just wouldn't be a priority. We can't 
let that happen. This is too big a thing and too many people 
involved, and the anticipation and all would be just 
devastating.
    Mr. Domenech. We have talked with your staff before. This 
Secretary, maybe more than any previous one, has been so 
focused on helping the ancillary areas that now is the time to 
try to get that done.
    Ms. Bordallo. He has been very cooperative. I thank him 
very much for that.
    I have another question for General Bice.
    The issue with housing and insurance for H-2B workers can 
be addressed through the contracts. However, the burden for 
eligible workers from the region, such as FSM and the other 
Micronesia areas, will continue to be an issue. They are not 
coming in on the same DOD contracts.
    How are you going to handle that?
    General Bice. Thanks for the question.
    We will work with the Government of Guam on that to see 
what requirements are needed for the housing. I know the 
Governor has asked me specifically to address the H Visa 
workers. His main concern was to ensure that they are 
accommodated in a safe, secure manner, and they meet the 
standards that we all expect people to be living in. So that 
has been our focus and our efforts so far.
    I will consult with the Government of Guam and the Governor 
himself to see what needs to be done, if anything, to 
accommodate those workers.
    Ms. Bordallo. These contract workers are going to be 
looking at benefits. We can't have anything unfair or we are 
going to have a real problem. So I think that is an important 
issue.
    How will we provide funding for this?
    General Bice. Well, the workers today, the H Visa workers 
today get a housing allowance from the contractors, and their 
housing allowance pays for their accommodations. In most cases, 
they don't have to build the facility; they contract those 
facilities, and that contracted facility is paid for by the 
contract itself.
    Ms. Bordallo. Yes, I understand that. But what about this 
other category?
    General Bice. I am not aware of any issue dealing with 
housing for the non-H Visa workers. I am not aware of any 
problems there, ma'am.
    Ms. Bordallo. Well, for Micronesians, for one thing, I know 
it is very important, because I know we will be getting a lot 
of these people that are interested in working for the buildup.
    Have you not discussed it?
    General Bice. Certainly, that issue has not been brought to 
my attention by the Governor, no, ma'am.
    Ms. Bordallo. I think we should put that down as an issue, 
because it is going to come up.
    General Bice. I will discuss that with him.
    Ms. Bordallo. All right.
    Madam Chairman, I don't have any further questions. Thank 
you very much for the time.
    Mrs. Christensen. I thank Ms. Bordallo for her questions, 
and I thank the witnesses for their valuable testimony and 
their thoughtful answers.
    Members of the Subcommittee, as I said earlier, may have 
additional questions for the witnesses, and we would ask for 
you to respond to these in writing. The hearing record will be 
open for 10 days for these responses, as well as any additional 
testimony.
    Mrs. Christensen. If there is no further business before 
the Subcommittee, the Chairman again thanks the members of the 
Subcommittee, Ms. Bordallo, and our witnesses.
    The Subcommittee stands adjourned.
    [Whereupon, at 3:29 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
